<html>
<title> - NATIONAL LEVEE SAFETY AND DAM SAFETY PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
             NATIONAL LEVEE SAFETY AND DAM SAFETY PROGRAMS

=======================================================================

                                (110-38)

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                AND THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
35-920                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY, Pennsylvania  Virginia
TIMOTHY J. WALZ, Minnesota           CHARLES W. DENT, Pennsylvania
STEVE COHEN, Tennessee               JOHN R. `RANDY' KUHL, Jr., New 
JAMES L. OBERSTAR, Minnesota         York
  (Ex Officio)                       JOHN L. MICA, Florida
                                       (Ex Officio)

                                 (iii)

?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             RICHARD H. BAKER, Louisiana
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California           JOHN R. `RANDY' KUHL, Jr., New 
ELEANOR HOLMES NORTON, District of   York
Columbia                             CHARLES W. BOUSTANY, Jr., 
BOB FILNER, California               Louisiana
ELLEN O. TAUSCHER, California        JEAN SCHMIDT, Ohio
MICHAEL E. CAPUANO, Massachusetts    CANDICE S. MILLER, Michigan
GRACE F. NAPOLITANO, California      THELMA D. DRAKE, Virginia
MICHAEL A ARCURI, New York           JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                  (iv)

  




                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Larson, Larry, Executive Director, Association of State 
  Floodplain Managers............................................    35
Maurstad, David I., Director, Mitigation Division and Federal 
  Insurance Administrator, Federal Emergency Management Agency...     9
Moyle, John, Manager, Dam Safety Section, New Jersey Department 
  of Environmental Protection, Association of State Dam Safety 
  Officials......................................................    35
Roth, Larry, Deputy Executive Director, American Society of Civil 
  Engineers......................................................    35
Stockton, Steven L., Deputy Director of Civil Works, U.S. Army 
  Corps of Engineers.............................................     9
Williams, Warren D. ``Dusty,'' Director, General Manager-Chief 
  Engineer, National Association of Flood and Stormwater 
  Management Agencies............................................    35

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    50
Baker, Hon. Richard H., of Louisiana.............................    51
Carnahan, Hon. Russ, of Missouri.................................    56
Cohen, Hon. Steve, of Tennessee..................................    58
Costello, Hon. Jerry F., of Illinois.............................    59
Ehlers, Hon. Vernon J., of Michigan..............................    61
Hirono, Hon. Mazie K., of Hawaii.................................    63
Mitchell, Hon. Harry E., of Arizona..............................    65
Oberstar, Hon. James L., of Minnesota............................    70
Tauscher, Hon. Ellen O., of California...........................    73

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Larson, Larry....................................................    75
Maurstad, David I................................................    88
Moyle, John......................................................    94
Roth, Larry......................................................   109
Stockton, Steven L.,.............................................   116
Williams, Warren D. ``Dusty''....................................   119

                       SUBMISSIONS FOR THE RECORD

Stockton, Steven L., Deputy Director of Civil Works, U.S. Army 
  Corps of Engineers:

  Response to question from Rep. Norton..........................    19
  Response to question from Rep. Norton..........................    21
  Response to question from Rep. Napolitano......................    30
[GRAPHIC] [TIFF OMITTED] T5920.001

[GRAPHIC] [TIFF OMITTED] T5920.002

[GRAPHIC] [TIFF OMITTED] T5920.003

[GRAPHIC] [TIFF OMITTED] T5920.004

[GRAPHIC] [TIFF OMITTED] T5920.005



    JOINT OVERSIGHT HEARING ON NATIONAL LEVEE SAFETY AND DAM SAFETY 
                                PROGRAMS

                              ----------                              


                         Tuesday, May 8, 2007,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
        joint with the Subcommittee on Water Resources and 
                                               Environment,
                                                    Washington, DC.
    The Subcommittees met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Doris 
O. Matsui presiding.
    Ms. Matsui. I would like to call the Subcommittee to order.
    Today, we are going to have a joint hearing on national 
levee safety and dam safety programs before the Subcommittee on 
Water Resources and Environment and the Subcommittee on 
Economic Development, Public Buildings, and Emergency 
Management.
    I would like to welcome today's witnesses to our hearing on 
national levee safety and dam safety programs. We will hear 
from representatives of Federal and State agencies and national 
associations.
    In the aftermath of the 2005 hurricane season, the American 
public again focused on the importance of adequately designed, 
constructed, and maintained flood control infrastructure. The 
images of flooded streets, homes, and businesses continue to be 
a vivid reminder that we cannot take our Nation's 
infrastructure for granted. The potential for loss of life and 
property are too great to be ignored.
    Unfortunately, no one entity has a complete inventory or 
understanding of the Nation's flood control infrastructure. 
There has never been a comprehensive review of the adequacy of 
the levees that protect so many at-risk communities around the 
Country.
    Since receiving authorization and funding in the Fiscal 
Year 2006 supplemental appropriations bill, the Army Corps of 
Engineers has begun to review the status of levees in the 
United States. This initial review of over 2,000 levees found 
56 percent to be acceptable, 38 percent minimally acceptable, 
and 6 percent or 122 levee segments at risk due to unacceptable 
maintenance. My home State of California has also conducted an 
initial review of its levees and identified 29 critical sites.
    In the fall of 2006, California passed a $4 billion general 
obligation bond dedicated to levee repair work. Additionally, 
last month in my district of Sacramento the voters passed a 
local assessment by 82 percent that will raise an additional 
$326 million dedicated for current and future flood protection 
projects. We in Sacramento understand that there has to be a 
local share.
    These results point to the terrific need for a 
comprehensive review and approach to maintain our Nation's vast 
flood control infrastructure. While I am encouraged that we are 
making some progress in addressing these long-range flood 
protection issues, I firmly believe that better coordination 
from a policy perspective and a resource allocation perspective 
needs to be put in place. I am also glad that FEMA is here with 
us today. FEMA and the Corps share responsibility for the 
protection of communities behind the levees. FEMA, through its 
management of the National Flood Insurance Program, and the 
Corps, through its role in certifying the condition of flood 
control levees for structural soundness, determine the minimum 
level of protection in the 100-year flood plain.
    I look forward to hearing more about how the two agencies 
are collaborating and what ways things can be improved. I also 
look forward to the ideas that our non-Federal witnesses can 
offer for how all affected parties can better work together for 
the protection of our at-risk communities.
    Flood protection has been my top priority since taking 
office. Sacramento is the most at-risk river city in the 
Country for catastrophic flooding. How we proceed in developing 
a comprehensive national policy has direct impact on my 
constituents. I am committed to working with congressional 
leaders as well as industry leaders in an effort to streamline 
an over-arching flood protection policy that meets our Nation's 
long-term needs as well as our communities immediate 
vulnerabilities.
    This hearing is a good first step. I look forward to 
hearing from today's witnesses.
    At this time I would like to recognize Ranking Member Baker 
for any opening comments.
    Mr. Baker. Thank you, Madam Chair. I certainly appreciate 
the convening of this hearing on what is an extraordinarily 
important topic. I do not know that any State delegation has 
more sensitivity to the issue of levee integrity than the State 
of Louisiana and the lessons unfortunately learned by the 
failures there in 2005. What is extraordinary I believe is the 
recognition that dam structures and levees exist everywhere in 
this Country and that many were built 35, 40, 50 years ago 
without any modern standard of engineering or materials 
specifications and that they continue to be the barrier between 
significant new residential development and disaster.
    The bill that has been introduced by the gentlelady from 
Ohio, Mrs. Schmidt, which would at least begin the process of 
inventorying all of these structures around the Country, seems 
almost incredibly way overdue; and then secondly, to assess the 
structural integrity of those structures, again almost seems 
incredibly late at this point.
    In Louisiana, we have a combination of distressing 
circumstances. We reside in an area where the land is literally 
sinking as a result of the depositional activity of the 
Mississippi River. Much of our State was constructed by that 
process over many millions of years. And so as we build a levee 
to a designated height, over time the levee sinks. But the 
higher you build the levee, which means the bigger the material 
base must be, the more weight you have and the faster it sinks.
    Some people look at that and say, well, why would anyone 
want to live there, and what responsible person would want to 
live behind a levee given those dynamic problems. Well, we have 
an environment which is extraordinarily rich in oil and gas, 
seafood, and other assets, and I constantly point out to my 
friends across the Country that 70 percent of the Nation's 
grain harvest goes through the Port of Orleans to destinations 
around the world.
    And so there is economic necessity for people to live in 
this region. In fact, it is estimated that within a few years 
almost 90 percent of the American population will be within 
some reasonable drive of an American coastline. So it is a 
trend that is not likely to be reversed. Therefore, assessing 
the integrity of drainage and flood protection structures is an 
absolute necessity.
    I guess the ultimate question is how we are going to pay 
for all the improvements that ultimately are going to be 
determined to be necessary. Madam Chair, I read with great 
interest one estimate of the assessment of cost per mile of 
levee is $60,000. Now this is not to do anything, this is just 
to look at them. I have got to get a better understanding of 
how much looking you get for $60,000. But in any event, it 
tends to lead me to conclude that this is going to be a very 
expensive proposition to rectify. Unfortunately, it is going to 
be a great deal more expensive if we do not. I yield back.
    Ms. Matsui. Thank you, Mr. Baker.
    Now I would like to recognize Chairwoman Norton, Chair of 
the Subcommittee on Economic Development, Public Buildings, and 
Emergency Management, for any opening remarks.
    Ms. Norton. Thank you, Madam Chair. I, too, want to welcome 
you to today's hearing on dam and levee safety, which is an 
integral part of a national plan to ``reduce risks to life and 
property from dam failure in the United States.''
    As you know, the National Dam Safety Program Act was passed 
in 1996 with the stated goal of reducing risk of life and 
property through the establishment and maintenance of an 
effective national dam safety program to bring together 
expertise and resources of Federal and non-Federal communities. 
The Army Corps of Engineers works closely with State and local 
dam safety officials, FEMA, and various other agencies to 
update information on over 79,000 dams currently in the United 
States and Puerto Rico.
    As would be expected, safety regulation is an indispensable 
part of reducing hazards associated with dams. The 
responsibility for safety rests entirely with the States and 
every State except Alabama has a dam safety program. Most State 
programs include safety evaluations, a review of plans and 
specifications for dam construction, periodic inspections, and 
review and approval of emergency action plans.
    Through the National Dam Safety Program, States receive 
grants directly from FEMA and can use these funds to supplement 
State budgets to hire much-needed personnel, buy equipment for 
dam inspections, and perform safety analysis. These grant funds 
have been used to successfully train State personnel and to 
carry out in the field training for dam owners to conduct 
annual maintenance reviews. Further, FEMA funds have been used 
to revise and update State maintenance and operation guidelines 
to identify and operate dams to be repaired or removed.
    Almost a year ago, on July 26, this Subcommittee met to 
discuss amendments to and reauthorization of the National Dam 
Safety Program Act. I am eager to hear from today's witnesses 
about the progress this program has made since its 
reauthorization, and what, if anything, still needs the 
attention from the authorizing Committee.
    I thank you again, and welcome today's witnesses.
    Ms. Matsui. Thank you. At this time I would like to 
recognize the gentlelady from Ohio, Mrs. Schmidt, for any 
opening remarks.
    Mrs. Schmidt. Thank you, Madam Chairman. Thank you for 
recognizing me and for holding this important hearing on levee 
and dam safety programs.
    The terrible devastation of Hurricane Katrina underscores 
the need for reliable hurricane and flood protection 
infrastructure. An inventory and assessment of our Nation's 
levees is long overdue and it is shocking that we do not yet 
have one.
    I was pleased to support legislation that passed our 
Committee by voice vote last Congress, and in consultation with 
Congressman Duncan and our Committee leadership, was pleased to 
reintroduce this legislation this past March. This legislation, 
H.R. 1587, would greatly strengthen our levee safety 
infrastructure by providing inventory, inspection, and 
assessment of our Nation's levees. It would establish the 
National Levee Safety Program Act, which is modeled after the 
National Dam Safety Program Act.
    Thanks to the Dam Safety Program Act, we know a great deal 
more about our Nation's dams. When it comes to our Nation's 
levees, however, we know very little. We do not know how many 
we have, where they are located, and often do not know their 
condition. In addition to significant health and safety 
concerns, this lack of information is also frustrating as we 
try to prioritize future spending on flood protection. We often 
do not know what our levees are protecting or at what level of 
risk is associated with them. Establishing an inventory and 
assessment will enhance safety and help us prioritize future 
spending on flood protection so taxpayer dollars are spent as 
wisely as possible. The legislation I reintroduced to establish 
the National Levee Safety Program Act will allow us to develop 
a national inventory of levees, and work with States, local 
officials, and private entities to develop and strengthen levee 
safety programs.
    Thanks again for holding this hearing. I have talked or met 
with many of the experts who are testifying. I look forward to 
hearing more from them today. I know there are some ideas about 
how we can improve upon the legislation I introduced. As we 
move forward, I am optimistic that we will hopefully soon send 
the strongest possible bill to the House floor. Thank you.
    Ms. Matsui. Thank you. I would now like to recognize the 
gentlelady from California, Mrs. Napolitano, for any opening 
remarks.
    Mrs. Napolitano. Thank you, Madam Chair, and thank you for 
holding this very important hearing. As the Chair of the 
Subcommittee on Water and Power, this is of great interest to 
me for a number of reasons.
    We need to be more proactive about how we protect those 
areas that will affect the water delivery, the power delivery, 
and also the economy of many of our Nation's best resources. So 
I am very much looking forward to hearing the testimony and 
seeing how we can dovetail some of the efforts, because the 
dams produce electricity, which then goes to the grid. We are 
looking at global warming effects on those dams. And, of 
course, the levee protection, protects our economy, especially 
in California, and we saw what happened in Louisiana and some 
of those areas.
    So I am very much looking forward to this, Madam Chair, and 
thank both of you for opening it up. I yield back.
    Ms. Matsui. Thank you. Now I would like to recognize the 
gentleman from South Carolina, Mr. Brown, for opening remarks.
    Mr. Brown. Thank you, Madam Chairman, and I thank both you 
and the Subcommittee for calling this important hearing today.
    Levees and dams serve an important purpose for both 
providing safety protection of communities, but also in 
providing other services such as recreation. While one may not 
think of coastal South Carolina as home to many dams, there are 
59 dams in my district providing important services for their 
owners and thereby communities. Unfortunately, 12 of them are 
considered high hazard dams, and each is privately owned.
    My coastal district knows the impact of floods and storm 
surges. So I am pleased to see that this hearing is 
additionally focused on the needs to improve our Nation's 
levees. The coast of my whole district depends upon beaches, 
marshes, and barrier islands to protect it from hurricanes and 
many areas have levees to provide additional protection. We 
must get a better handle on the conditions of our levees across 
the Nation and we must do it in a way that cuts through the 
bureaucracy that has clouded decisionmaking on this issue up 
until now.
    Madam Chairman, I look forward to hearing from our 
witnesses. Thank you for coming.
    Ms. Matsui. I would now like to recognize the gentleman 
from New York, Mr. Hall, for opening remarks.
    Mr. Hall. Thank you, Madam Chair, Ranking Member, and thank 
all of our witnesses today.
    I represent a district, all five counties of which are now 
under a FEMA and State Disaster Declaration. Dutchess County, 
Westchester County, Putnam County, Orange County, and Rockland 
County, New York, straddling both sides of the Hudson River, 
were hit very hard about two weeks ago by the nor'easter that 
came up through the eastern seaboard. I feel that we are living 
in an experiment. I also sit on the Select Committee on Energy 
Independence and Global Warming and we have heard testimony 
most recently from the insurance companies and their 
representatives and from reinsurance experts about how they are 
computing the future damage likely to be caused by increased 
storm severity and frequency. We had in the last 18 months 
three 50 year floods, according to the farmers in Orange County 
who I have met with whose fields are still drying out.
    Obviously, all of us need to be concerned, and we in the 
19th District need to be concerned about the dams, about water 
projects in general, river clearing and snagging and 
channeling, and levees when necessary. We do not have that many 
of them in our part of the Country, but I certainly support the 
restoration and maintenance of those in parts of the Country 
where they are essential. I also share with my fellow 
Congressman Napolitano the concern that she voiced about the 
potential or the actuality of low-head hydro-electric power or 
even larger scale hydro-power being generated when possible. 
But the first thing is to assess the safety of the structures 
for those living downstream.
    Yesterday, I visited three dams in my district, all of 
which are over a hundred years old. The Whaley Lake Dam has 
burrows on the surface of it. It is a dam that is largely earth 
and rock with some concrete structure. It has a frozen relief 
valve for the emergency release, a 48 inch pipe, and that valve 
is in the middle of the dam where it would not be accessible 
were the dam being overtopped by high water. Also at the Beaver 
Dam in Orange County, and Veterans Memorial Park Lake Dam in 
Putnam County. In this latest storm, there was severe damage to 
Wappinger's Falls Dam where there is a low-head hydro plant.
    How we catch up is the question. My understanding from 
speaking to representatives of the Corps of Engineers is they 
feel that the budget that was presented for this year by the 
Administration does not give them adequate flood control 
funding. I am interested in hearing about that. And then as 
long as we are out doing assessments for safety, I am curious 
to know how much extra time or effort is involved in doing an 
assessment at the same time for hydro-electric potential.
    So I am glad you are here. I am looking forward to your 
testimony. Thank you Madam Chair. I yield back.
    Ms. Matsui. Thank you. At this time I would like to 
recognize the gentleman from Colorado, Mr. Salazar, for opening 
remarks.
    Mr. Salazar. I want to thank the gentlelady. Thank you, 
Madam Chair. I appreciate that we are addressing the safety 
issues of our Nation's levees and dams. I believe there is no 
question that having a safe and secure infrastructure is vital 
to our Country's overall well-being.
    Many of our Nation's dams are aging and deteriorating. 
Currently, there are over 3,300 unsafe dams across the United 
States. Look no further than last month when dam failures 
caused major problems in both New Hampshire and New Jersey.
    This morning's front page news in the Pueblo Chieftain 
talks about Fond Creek floods embankment fails. Much of Pueblo 
was flooded yesterday because of unsafe levees.
    It is unacceptable that our Nation's dams receive a D from 
the American Society of Civil Engineers in their 2005 Report 
Card for America's Infrastructure. I believe that dam safety 
affects millions of people, and I am pleased to be sponsoring 
the Dam Rehabilitation and Repair Act of 2007 along with my 
good friend on the other side of the aisle, Mr. Randy Kuhl from 
New York. Our bill, H.R. 1098, will help our local communities 
fix their high hazard deficient dams. Many of these dams, all 
State or locally owned, have been neglected for years and now 
pose a great risk to their nearby communities.
    In my State of Colorado, we have over 1,800 dams, 741 of 
them are in my district. Of those, 340 are classified as high 
hazard dams, which means they are near people and can 
potentially endanger life. An additional 19 dams are deficient 
and the State has determined that they are in serious need of 
repair. H.R. 1098 is a modest start to addressing the safety of 
our Nation's dams. We should continue to be proactive in 
funding rehabilitation of critical infrastructure, and dams 
should be no exception.
    I look forward to today's testimony. Thank you. I yield 
back.
    Ms. Matsui. Thank you. At this time I would like to 
recognize the gentlelady from Hawaii, Ms. Hirono, for opening 
remarks.
    Ms. Hirono. Chairwoman Matsui and Chairwoman Norton, thank 
you very much for holding this very important hearing. I 
represent a district with 136 regulated dams. On March 14 of 
2006, one of these, the Kaloko Dam on the Island of Kauai, was 
breached after an unusually heavy rain of 40 days. This 
resulted in the failure of the dam and 1.6 million tons of 
water crashing down from the reservoir, resulting in the deaths 
of seven people including a young child and a woman who was 
eight months pregnant. In addition to the tragic loss of life, 
this catastrophe led to an ecological disaster with significant 
damage to streams, reefs, and coastal waters, not to mention 
the hardship on the farmers who relied on their irrigation from 
the dam.
    Kaloko Dam was not even characterized as a high hazard dam, 
although it was categorized as a regulated dam. It was supposed 
to be regularly inspected. Unfortunately, this did not happen. 
This dam, like the majority of old earthen dams in Hawaii, was 
constructed and maintained for many years by Hawaii's formerly 
strong sugar industry. After the closure of many of these sugar 
companies, what we were left with was a dam owned by one party, 
the irrigation ditches by another party, and users of the water 
were a number of small farmers. And so the oversight formerly 
performed by the sugar company was simply nonexistent.
    The tragedy of Kaloko Dam focused the attention of the 
State of Hawaii on the need to assess the condition of the many 
old earthen dams in the State. And with the critically 
important assistance of the Army Corps of Engineers, all 136 
regulated dams have now been inspected. However, the need for 
funds to repair, renovate, and in some cases demolish these 
dams is significant. This is why I have cosponsored, with our 
fellow Committee Member Representative Salazar, his bill H.R. 
1098, the Dam Rehabilitation Repair Act of 2007. This bill 
provides Federal funding to assist States to address urgent 
needs to repair dams that pose a significant threat to public 
health and safety. I am hopeful that our Committee will 
consider H.R. 1098, which provides much needed assistance for 
our States in meeting this very urgent safety challenge.
    I yield back my time. Thank you.
    Ms. Matsui. Thank you. I would like to recognize now my 
colleague from California, Mr. McNerney.
    Mr. McNerney. I thank the Chairs and the Ranking Members 
for holding this important hearing. I represent a portion of 
the central valley in California just South of Sacramento, 
including the major city of Stockton that, like Sacramento, is 
very susceptible to levee flooding. Our district either 
contains or abuts a large number of the 122 levees that the 
Corps has determined to have unacceptable maintenance. So I 
clearly have a keen interest in today's hearing.
    In the last few weeks, a delegation of local 
representatives from San Joaquin County and local jurisdictions 
within the county came to visit us to push for Federal funding 
on several issues. But the one issue that they stood out upon 
was levee failure and the levee security. I hear the same thing 
when I talk to members of my community, of the residents, they 
are all genuinely concerned that an earthquake or other natural 
disaster could cause major flooding and the disastrous 
consequences for decades in our area.
    We had a failure in 2004 of the levee Jones' Tract and it 
took $90 million dollars to repair that levee. That should have 
been a wake-up call. Estimates are that a massive or multiple 
simultaneous failures caused by earthquake or similar event 
would cause $40 billion dollars in damage, undermine the 
environmental integrity of the entire delta, and shutting off 
water to approximately 23 million Californians. It is a matter 
of time before we have this sort of event in California. I want 
to make sure we are doing everything we can to make sure we 
prevent that sort of event from being a catastrophe.
    I am looking forward to your testimony today. I appreciate 
that you are willing to come down here and talk to us. I yield 
back the balance of my time.
    Ms. Matsui. Thank you. Now I would like to recognize the 
gentleman from Missouri, Mr. Carnahan, for opening remarks.
    Mr. Carnahan. Thank you, Madam Chair. It is great to be 
here with my colleagues to talk about this key issue. I am here 
today after we have all seen the news about the Missouri River 
in my State that made it within a few feet of the historic 
flood crest of 1993.
    I am very concerned and I just want to express in my 
opening remarks the lack of a nationwide inventory of all the 
locations for Federal and non-federal levees and their 
condition. Levees protect the human lives, agriculture, 
commercial/residential property from flooding on our Nation's 
treasured waterways. There is absolutely no excuse for the 
Federal Government's lack of understanding of the condition of 
every levee. For that reason, I support the creation of a 
National Levee Safety Board.
    I would also like to express my opinion regarding the need 
of coordination among levee districts. These levee districts 
are responsible for the maintenance of Federal levees but often 
do not sufficiently coordinate with neighboring districts. 
Because floods in our major waterways can affect numerous levee 
districts, Congress must encourage these districts to better 
coordinate their efforts.
    With that, I am going to ask that the remainder of my 
opening remarks be submitted for the record. I look forward to 
hearing this panel today.
    Ms. Matsui. Thank you.
    We will now proceed to our witnesses. We are so pleased to 
have a very distinguished panel of witnesses on our first panel 
here this morning. First we have Mr. David Maurstad, Director 
of the Mitigation Division and Federal Insurance Administrator 
of the Federal Emergency Management Agency. We also have Mr. 
Steven L. Stockton, Deputy Director of Civil Works of the U.S. 
Army Corps of Engineers. We are pleased that you could join us 
this morning. Your full statements will be placed in the 
record. We ask that witnesses try to limit their testimony to a 
five minute oral summary of their written statements as a 
courtesy to other witnesses.
    Mr. Maurstad, please proceed, and then we will follow with 
Mr. Stockton.

 TESTIMONY OF DAVID I. MAURSTAD, DIRECTOR, MITIGATION DIVISION 
    AND FEDERAL INSURANCE ADMINISTRATOR, FEDERAL EMERGENCY 
MANAGEMENT AGENCY; STEVEN L. STOCKTON, DEPUTY DIRECTOR OF CIVIL 
              WORKS, U.S. ARMY CORPS OF ENGINEERS

    Mr. Maurstad. Good morning. My name is David Maurstad. I am 
the Assistant Administrator for Mitigation in the Department of 
Homeland Security's Federal Emergency Management Agency. I am 
honored to appear before you today to discuss FEMA's National 
Dam Safety Program and the Agency's policies as they relate to 
levees and areas of residual risk.
    The December 22, 2006 reauthorization of the National Dam 
Safety Program will greatly benefit the States and enable the 
program to continue effectively addressing the risks associated 
with the more than 79,500 dams across the Nation.
    Through grants, training support, research, data 
collection, and other activities, the program provides a much 
needed impetus for the continued safeguarding and protection of 
people, property, and the dams themselves.
    The National Dam Safety Program provides critical support 
for the operation, maintenance, and improvement of the Nation's 
dams. Thanks to the recent reauthorization, the program 
continues to improve.
    The States regulate approximately 95 percent of the 
Nation's dams. From fiscal year 2004 through 2007, FEMA 
distributed a total of approximately $12.9 million in grant 
assistance to 49 participating States and Puerto Rico for dam 
safety. The number of State regulated high-and significant-
hazard potential dams with emergency action plans, or EAPs, has 
increased by about 50 percent since 1998, to approximately 
8,000 dams. State dam inspections have also increased from 
13,000 to 15,000 inspections per year. This increase is 
particularly impressive considering that State dam safety 
budgets have been declining.
    The National Dam Safety Program also funds research 
projects in support of dam safety. To guide funding decisions, 
the National Dam Safety Review Board developed a five year 
strategic plan which ensures that priority is given to research 
projects that demonstrate a high degree of collaboration and 
expertise and will yield products that contribute to dam safety 
in the United States. Other important areas of focus are 
training and exercise initiatives, funding information 
technology projects, and collaboration with Federal agencies on 
dam safety and security issues.
    Federal agencies responsible for dams owned or operated by 
the Federal Government have made significant strides in 
ensuring the safety of dams within their jurisdictions. Federal 
and State coordination has also increased in many areas, 
including emergency action planning, inspection, research and 
development, training, and information exchange.
    Despite the program's achievements, the dam safety 
community continues to face many challenges, most critical the 
aging of America's dams. Recent data indicates that the number 
of deficient dams in the U.S. has increased by more than 33 
percent since 1998 to more than 3,500. It is also estimated as 
of 2002, 85 percent of the dams across the Country were 50 
years or older.
    The dam safety community is working on a number of options 
to remediate dam deficiencies and progress is being made. Some 
examples include: model loan programs for the repair of dams, 
dam removal projects, and rehabilitation programs. The program 
also is working to address the identification and 
classification of dams and to ensure that all 50 States 
participate in the program. Alabama, the only State not 
participating, is developing legislation needed to provide 
State participation in the program complete.
    Finally, let me turn to a significant challenge FEMA is now 
facing, how to depict areas situated behind levees on the 
agency's flood insurance rate maps. These maps are currently 
being updated through FEMA's Map Modernization Program. They 
are important community planning tools that depict flood risk 
levels and enable FEMA's National Flood Insurance Program to 
set fair and affordable rates. Accurately depicting levee 
protected areas has become a critical matter. Some firm panels 
may depict levees that have never been evaluated for compliance 
with applicable mapping criteria, yet the map modernization 
budget does not include resources for levee evaluations. In the 
case of private levees, the levee owner is responsible for 
providing documentation that the levee complies with regulatory 
requirements. In the case of federally-owned levees, the 
Federal owner agency is responsible.
    If FEMA, the National Flood Insurance Program, and our 
floodplain management partnership do not address this matter 
judiciously and wisely, the production of modernized maps could 
be significantly delayed. Of course, we must balance this 
concern with the need to provide levee owners enough time to 
evaluate levees and to submit required data to appropriate 
authorities. FEMA is doing all that it can to make sure that 
the risks in communities with levees are properly documented 
and communicated, and that areas behind decertified or failed 
levees are mapped in a manner that clearly identifies risk to 
life and property.
    Let me conclude by indicating to effectively prioritize and 
address issues of concern, we believe that a comprehensive 
national levee inventory system and database should be 
developed, monitored, and maintained. FEMA is encouraged by the 
Army Corps of Engineer's initiative to develop a national levee 
inventory and we are working closely with the Corps at the 
headquarters, regional, and local level to address flood risk 
and insurance implications of levee certification. Thank you.
    Ms. Matsui. Thank you, Mr. Maurstad.
    Mr. Stockton, you may proceed.
    Mr. Stockton. Thank you, Chairwoman Matsui, Ranking Member 
Baker, and Members of the Subcommittee. I am Steve Stockton, 
Deputy Director of Civil Works for the U.S. Army Corps of 
Engineers and a registered professional engineer.
    I am pleased to be here today and to have the opportunity 
to speak to you about the National Dam Safety Program and the 
proposed National Levee Safety Program. My testimony today will 
provide a brief discussion on the benefits of the programs, the 
need for establishment of a National Levee Safety Program, an 
update for the current Corps of Engineers Levee Safety Program, 
and the coordinated efforts between the Corps, FEMA, and others 
in the Flood Risk Management Program.
    Following the failure of Teton Dam, Kelly Barnes Dam, and 
others in the 1970s, there was an emphasis placed on 
inventorying and inspecting dams and the need for a coordinated 
Federal and State program for dam safety. Through the years 
following these catastrophes, the program has developed into 
the National Dam Safety Program that FEMA administers, and 
State programs exist today with 49 of the 50 States. Like the 
dam failures in the 1970s, the levee and flood wall failures 
associated with Hurricane Katrina and the major levee repair 
needs in California, emphasize the need for a National Levee 
Safety Program and State levee regulatory agencies.
    The National Dam Safety Program provides benefits to the 
Nation by reducing risks to life and property from dam failure 
through an effective program that brings together the expertise 
and resources of the Federal and non-federal communities in 
achieving hazard reduction. These benefits are being achieved 
through the publication of various technical documents, through 
the training of dam safety professionals, through cooperative 
research, and through publication of the National Inventory of 
Dams. The program has allowed the Corps to leverage its 
resources through work with other Federal agencies and with the 
various States. The program has improved dam safety programs by 
providing a forum for the States to share information as well.
    Just as the National Dam Safety Program has improved dam 
safety across the Country, the establishment of a parallel 
National Levee Safety Program would improve levee safety. Such 
a program would provide support to new State agencies being 
established to regulate levees. This program would bring the 
expertise and resources of the Federal and non-Federal 
communities together in achieving levee safety hazard 
reduction. Development of the program will not be overnight. It 
has taken 25 years for the dam safety program to grow to 
maturity, but the levee safety program will use the lessons 
learned from the development of the dam safety program as a 
basis to allow for quicker implementation.
    The first step in establishing a levee safety program will 
be inventorying and assessing the levees. The Corps is taking 
the first step with supplemental appropriations provided in 
Fiscal Year 2006 to inventory levees in the Corps program and 
to develop risk based methodology for the assessment of these 
levees. At present, we have accounted for all levees in our 
program and by the end of this Fiscal Year we will have 
completed detailed surveys of over two-thirds of all levees. 
Assessment methodology development is ongoing and is currently 
being beta tested. It will be ready for use in risk assessments 
in Fiscal Year 2008.
    Notwithstanding the Administration's concern with the 
proposed Water Resources Development Act currently under 
consideration by Congress, I would like to present the Corps' 
factual assessment of that bill's proposed National Levee 
Safety Program. The proposed program is modeled after the 
current National Dam Safety Act. The legislation would 
establish a national committee of Federal, State, tribal, 
local, and private representatives to advise the Secretary of 
the Army on levee safety matters. The committee would lead the 
development of Federal and State standards for levee safety and 
the establishment of a model for State levee safety programs. 
The committee would draw on the expertise and knowledge of the 
National Dam Safety Review Board and the Interagency Committee 
on Dam Safety in the development of the program. Substantial 
changes that were added to the National Dam Safety Act in 2006 
would be included in the levee program from its beginning.
    The inclusion of an assessment of each levee in the 
inventory could enhance the value of the inventory when used by 
various emergency agencies and local governments during times 
of natural disasters. The assessments could allow the first 
responders to focus their actions in critical areas where 
failures are most likely to occur. This could save time and 
possibly lives in emergency situations. In addition, these 
assessments could provide information to assist local 
governments, public utilities, and private individuals when 
making investment decisions concerning property protected by 
the levees.
    If the proposed legislation is enacted in its current 
version, authorization of appropriations would be included that 
are consistent with the appropriations that have been provided 
over the years for the National Dam Safety Program.
    We are committed to continuing to improve the safety of 
Federal dams and levees, continuing to cooperate with other 
Federal and non-Federal agencies to reduce the risk to public 
safety in areas located below dams and behind levees, 
continuing to help decisionmakers set priorities for future dam 
and levee safety investments, and continuing to ensure that all 
Americans can make more informed decisions on building homes, 
locating businesses, and purchasing flood insurance based on 
the actual risk of flood and storm damages where they live.
    This concludes my statement. Again, I appreciate the 
opportunity to testify today. I would be pleased to answer any 
questions.
    Ms. Matsui. Thank you very much. I would like to begin by 
asking Mr. Stockton a question about watersheds in a sense. We 
all know that we cannot look at an area just segment-by-segment 
because every area affects every other area. And we are looking 
more at watershed planning, how one area affects the other, and 
what we do in the various areas. So I was wondering what 
changes to existing authorities or new authorities will be 
needed for the Corps to better analyze cumulative impacts of 
flood control projects and better incorporate these projects 
into more realistic watershed plans.
    Mr. Stockton. Thank you, ma'am. Coming out of Hurricane 
Katrina, we did, in fact, find that we had a hurricane 
protection system in name only. The projects had been 
authorized as individual components. A lot of our policies 
drive us to work with non-Federal sponsors to authorize and 
then to construct individual projects. What we are hoping to do 
is develop a more comprehensive, integrated systems approach to 
planning; manage all of the projects within a watershed to 
achieve multiple purposes; look at life safety as being the 
primary objective; and really improve our ability at risk 
communication and lifecycle management of infrastructure.
    As far as the needed authorities, I think we have many 
authorities now that allow us to take a step in that direction. 
One of the main obstacles to doing watershed planning has been 
the provisions that require non-Federal sponsors cost-share 
those studies. We were funded in Fiscal Year 2006 to do five 
pilot watershed studies at 100 percent Federal funding, and I 
think those experiences and the lessons learned out of those 
five pilot watershed studies will inform future decisions on 
what additional authorities may be needed.
    Ms. Matsui. To follow up, would you be considering some 
nonstructural elements as you are proceeding in analyzing 
watersheds, not just the structural elements of levees and 
dams?
    Mr. Stockton. Absolutely.
    Ms. Matsui. I have a question for Mr. Maurstad about the 
100-year floodplain. Is it an appropriate level of protection 
for most flood control decisions? I know it is as far as a 
marker for flood insurance. But is it an appropriate level of 
protection?
    Mr. Maurstad. I think the thing to keep in mind relative to 
the 100-year level or the 1 percent annual chance is that it is 
a minimum Federal requirement for the Flood Insurance Program. 
That has become a marker for making other decisions, other 
policy decisions which may or may not be appropriate. I think 
we need to continue to move forward in making sure that people 
understand that as we communicate what a 1 percent annual 
chance is, that is just the minimum level. We want to continue 
to encourage communities to base decisions on higher levels and 
reward them for doing that through the community rating system 
and providing discounts to policyholders in their particular 
area.
    A similar issue to the one that you have raised is to make 
sure that people understand and that we look toward recognizing 
residual risk behind levees and dams, and that people 
understand that the levee and the dam is providing a particular 
level of protection up to a particular design for a particular 
size of storm. But, again, that is just a guide for us to use, 
it is not an absolute as to whether or not you have protection 
for every and all events that may occur.
    So I think we need to better communicate. I think we need 
to make sure local and State governments base their decisions 
that this is the minimum Federal requirement, that the private 
sector also look at it and recognize that there may be issues 
of risk that they need to take into account as they make 
decisions on development. So communication, identification, and 
analysis of the risk I believe we just need to continue to 
improve upon.
    Ms. Matsui. For both of you. I know that FEMA and the Corps 
work pretty well together. I see this in Sacramento a lot. But 
what changes would you like to see to improve program 
efficiency and interaction between the Corps and FEMA?
    Mr. Maurstad. Well, I will start in saying that there has 
been a very good working relationship between FEMA and the 
Corps historically. I believe that with the support of 
Administrator Paulison, General Strock, General Riley, we have 
raised that to a higher level, going back to August of 2005 
when senior leadership began meeting and working in conjunction 
with the Association of State Floodplain Managers and NAFSMA on 
how we can better coordinate our programs so that the end 
user--communities, States, and local citizens--can better 
understand the relationship and the responsibilities and the 
role of the respective agencies.
    We have done more than just meet at that level. We also 
have taken steps together with General Riley to have greater 
working relationships at the field level with the FEMA regions 
and the Corps districts so that there is a better coordination 
and consistency throughout the Country on policies that affect 
both FEMA and the Corps of Engineers.
    So I think we had a good foundation. We have built on that 
foundation for greater communication and collaboration. Part of 
why we are doing this is so that we can identify those areas 
that we do not need additional legislation to better provide 
service to the Country. And in those areas where there may be 
changes in regulation or guidance, that we do it in cooperation 
and collaboration instead of individually, and then finally, if 
there are areas that need legislative remedy, that we bring 
that to the attention of decisionmakers.
    Mr. Stockton. I could not agree with Mr. Maurstad more. I 
think collaboration has been excellent at the national level 
and at the regional level. Before we go out with policies on 
certification of levees, or vegetation management policies on 
levees, or issuance of flood risk maps, we coordinate those 
very, very closely so we do not confuse the public by having 
different policies. So, a very good collaborative relationship.
    Ms. Matsui. Thank you. I would now like to have Ranking 
Member Baker ask questions.
    Mr. Baker. Thank you, Madam Chair. Mr. Stockton, I want to 
engage in a more detailed discussion about Katrina assessments. 
Since the event of the storm and the extensive work the Corps 
has engaged in, which has been monumental, to restore and 
improve the levee system, does the Corps now have a database of 
levee integrity to know where we still have identifiable 
problems, or is there insufficient data yet to make a levee 
system assessment?
    Mr. Stockton. Specifically within New Orleans and vicinity, 
we have that information. We have done detailed assessments of 
the Hurricane and flood damage reduction systems in that 
vicinity.
    Mr. Baker. How granular is that? Is it just by drainage 
basin? Can we get to neighborhood? In other words, if I am a 
homeowner and I want to know what my circumstance looks like, 
what kind of risk assessment am I as a homeowner able to make 
by calling the Corps, or do we need more data?
    Mr. Stockton. I would say within the next month we, in 
collaboration with FEMA, will be issuing risk maps, that try to 
take a lot of the technical information that has been acquired 
through assessments of the levee systems and be able to 
communicate that and inform the public about that residual 
risk. So we are probably about a month out from being able to 
really issue those maps and that information in an 
understandable form.
    Mr. Baker. Okay. Were there are actually two parts here. 
One is I guess the FEMA part, which is the hydrology, storm 
surge kind of assessment. I am more interested in the 
structural side. If the entity that is there is sitting on top 
of a clay and we have got a T-wall barrier that might get 
tilted with the storm surge and the water seeps down the front, 
all of a sudden you have got that leveraging effect that causes 
failure. Do we have a good understanding about the structural 
integrity of the levee as separated from the overall storm 
management risk issue, which is the FEMA part?
    Mr. Stockton. Yes. We have completed the detailed 
assessments and we are now in the design phase for those areas 
that are deficient and implementing remedial designs for those 
areas.
    Mr. Baker. Based on that assessment, and I know that the 
system varies from section to section as to what level storm it 
is competent to withstand, Orleans area only, are we now back 
to pre-Katrina level? Are we at 90 percent? What is your 
assessment of our condition in a categorical sense?
    Mr. Stockton. Today, we are back to pre-Katrina levels. The 
pre-Katrina levels after the Interagency Performance Evaluation 
Team looked at the entire system were not as high as we thought 
they were pre-Katrina. So they are higher than they were prior 
to Katrina but they are not as high as we thought they were 
because of a lot of factors.
    Mr. Baker. I know there is litigation pending, but have we 
made any determination on the governmental side about prior 
failure to meet design standards by contractors constructing 
any element of the levee system? I know you may not be able to 
say in some cases because there is some litigation about this 
ongoing I understand. But I will make it easier. As opposed to 
construction and adequacy, or design and adequacy, or design 
built to the 100-year level and the storm simply overwhelmed 
appropriate design based on that frequency of storm, what is 
the most common problem in assessment of the post-Katrina 
event: contractor deficiency; design deficiency; and maybe I 
ought to add a fourth, lack of maintenance to maintain the 
integrity; or an unpredictable storm that simply overwhelmed 
the generally accepted standard for protection?
    Mr. Stockton. Sir, I think those are all contributing 
factors. As you know, we have produced our Interagency 
Performance Evaluation Team Report that was peer reviewed by 
the American Society of Civil Engineers and which is being 
reviewed by the National Academy of Science. All that 
information on the engineering forensics of what happened and 
why, is publicly available, it is posted on the IPET website. 
So the information is out there. I cannot give you a breakdown 
of the root causes from each of those contributing factors, but 
they all come into play.
    Mr. Baker. Equally? There is no predominant observation as 
a result of the storm there is one area we need to be more 
concerned about than others?
    Mr. Stockton. I think if there is one predominant area, it 
was the overwhelming nature of the storm. It exceeded the 
design standards in many areas. But there were other 
contributing factors.
    Mr. Baker. And it was a 3 storm that hit rather than a 5. 
Thank God for that. Going forward, we have another Katrina on 
the horizon, and this is maybe a FEMA contributing response as 
well, but assume for the moment it is that 3-plus storm this 
season, are there areas where we should have particular 
concerns? There is a balance here. People will not leave more 
than three days in advance. If you maximized outflow for three 
days from the Orleans area, there is not enough concrete to get 
everybody out under sort of the existing protocol that is 
usually adopted. Has there been any modification, FEMA, your 
agency, as to how we notify in this particular locale the 
people with better information earlier on, a more sophisticated 
risk quantification? So that we know there is a problem with 
the levee, we know this storm has a high likelihood, and we 
know we have got too many people to get out. What can we do to 
avoid that, and what structural, organizational, informational 
changes have been made since Katrina going into this storm 
season?
    Mr. Stockton. Sir, as you know, we are continuing to build 
the system stronger and better. Every day that goes on, we 
continue to complete work that provides additional protection. 
These risk maps that will be published within a month will show 
at different points in time how much risk is reduced based 
upon----
    Mr. Baker. Excuse me. I am way over my time and I want to 
get the point in.
    The publication of the map a month from now is certainly 
helpful and will give people with the ability to make their own 
personal independent assessment. What I am speaking to is the 
public service notifications that come across the media based 
on your structural and engineering knowledge, complemented by 
FEMA's own assessment of the severity of the storm to give 
people more adequate warning to take actions on their own to 
avoid what happened before.
    I will point out, you said we are back to pre-Katrina levee 
construction standards which were less than what we thought 
they were, which, in my view, is probably inadequate to 
withstand a storm of the severity which we faced two years ago. 
I hope my assessments are incorrect. But in light of that, do 
we have a better ability to notify people of the pending risk 
so that they can get the heck out in a more deliberate time?
    Mr. Maurstad. Mr. Baker, I would say we certainly do, built 
upon the work that was started this time last year, fine tuned 
throughout the year, and again working on as we approach 
hurricane season again this year by the Louisiana Transition 
Recovery Office in New Orleans, working very closely with the 
State and very closely with New Orleans on refining and making 
sure that the community has an evacuation plan that encompasses 
all the various needed components to identify, as you have 
talked about, if a certain situation exists, how are we going 
to assist, how is the community going to evacuate for that 
particular set of circumstances, including at-risk individuals 
that may not be able to evacuate themselves, better sheltering 
in place, and a whole variety of components that make up a 
good, sound, solid evacuation plan. Of course, primary 
responsibility for that, with the support of FEMA and the 
State, is the City.
    Mr. Baker. Madam Chair, I thank you for your indulgence in 
the time. This is an area where we have a lot of work yet to do 
I am afraid.
    Ms. Matsui. I understand, Mr. Baker. At this time I would 
like to recognize Chairwoman Norton for her questions.
    I know we have another panel following this. I would like 
to try to limit the questioning to five minutes. Thank you.
    Ms. Norton. Thank you very much, Madam Chair. Mr. Stockton, 
I could not help but notice, I hope you noticed, in the New 
York Times yesterday a report where one of the critics of the 
dam construction in New Orleans offered more criticism. This, 
of course, is Robert Bee, the professor of engineering from the 
University of California at Berkeley, who was concerned about 
erosion on a levee by the Mississippi River Gulf outlet. This 
is a navigation canal that helped channel water into New 
Orleans during the storm. He indicated that the Corps had done 
good work and he could not be certain without further 
inspection, and did not want to cry wolf, but he did say he 
also did not want to ignore what he calls potentially important 
early warning signs.
    Now what he points to is the use in the levees in New 
Orleans of a dense clay-rich soil that is supposed to resist 
erosion, and he cites recent work in the Netherlands that 
suggest that clay-capped levees with a porous core were prone 
to a failure in high water.
    My question is, why did the Corps reject the suggestion 
that the levee should be armored with rock or concrete against 
overtopping and instead use this porous clay-rich soil which 
may erode over time?
    Mr. Stockton. Ma'am, as I stated earlier, our number one 
priority is public safety. I, too, read the article. We 
imported most of the clay-rich soil because it is more 
resistant than some of the----
    Ms. Norton. I am asking a very specific question. Why the 
soil rather than the rock or concrete? Do you disagree that the 
rock or concrete overtopping would have been more secure? I 
understand that you are doing your best. I want to know why you 
chose one material over the other.
    Mr. Stockton. We have some funds included in there to 
provide overtopping protection. We do not have enough funding 
to provide overtopping protection everywhere. That said, we are 
importing high-quality materials, they are meeting ASTM 
standards, and they are being built to very high standards. You 
can always build things better and stronger if you have enough 
money to build them better and stronger.
    Ms. Norton. So I take it you are not using the rock or 
concrete topping anywhere in the levees in the Gulf region?
    Mr. Stockton. No, we are in many areas.
    Ms. Norton. So how do you determine where to use it? How do 
you determine, given the limited funds which I think you cite 
as a reason for not using them universally, how do you 
determine when to use them and where to use the rock or 
concrete overtopping? Where are they being used, for example?
    Mr. Stockton. In the highly dense urban areas, we have now 
modified our structures to prevent erosion on the backside of 
those levees where there is high risk and high consequences to 
human life and property. In other areas, we have used lesser 
standards where there are lower consequences.
    Ms. Norton. Would you within 30 days submit to this 
Committee an indication of where the rock or concrete 
overtopping is being used and where the porous clay is being 
used, and what percentage have rock or concrete overtopping? I 
understand what you are saying and also understand that you 
have very severe funding issues.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T5920.006
    
    Ms. Norton. Finally, let me ask, I am depending here upon 
one of your critics, and he has been a critic for some time, 
even though he says he is trying to be balanced here and gives 
you some considerable praise, the question is suggested whether 
or not there is any systematic peer review of the work of the 
Corps, or whether we are always dependent upon your critics, 
because here in the New York Times article, some said it looks 
all right to me, some say it did not. Here I am a Member of 
Congress trying to make a judgement. Is there any peer review 
system that the Corps uses?
    Mr. Stockton. Yes, ma'am. Every product we produce has an 
independent technical review of that product, and depending 
upon the risk and consequence, we will use other societies, 
like the American Society of Civil Engineers, as we did on the 
Interagency Performance Evaluation Team, the National 
Academies. For general design things, we will have architect 
engineer firms design them. So we are very open. We want the 
best possible solutions to problems.
    Ms. Norton. And this has been peer reviewed, the use of the 
clay reinforcements has been peer reviewed and has been 
approved?
    Mr. Stockton. I am not familiar with the specific 
allegations and locations. All I know is that the new designs 
that we are constructing go through an independent technical 
review process. If this is in a location where we are 
instituting a new design, it will go through that process.
    Ms. Norton. Thank you very much, Mr. Stockton. I am very 
concerned. We are going to have in my Subcommittee hearings on 
the over-arching issues that we think will keep or help 
repopulation of New Orleans, in particular. One of the things 
we are looking at, for example, is insurance, because if people 
cannot get insurance, I do not care what you do or what anybody 
does, it is not going to occur.
    And another thing we are looking at is the levees. Unless 
people believe that this is not going to happen to them again, 
people can keep saying come home, but people are not going to 
come home. So I am going to ask you to get to my Committee 
within 30 days what the peer review details are. Who did the 
peer review for the use of the clay-rich soil that is now being 
used on the levees around New Orleans and the Gulf Coast, which 
agency, National Academy of Sciences, the Association of Civil 
Engineers, whichever one. Please get that and a copy of the 
peer review to our Subcommittee within 30 days.
    I thank you very much, Madam Chair.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T5920.007
    
    [GRAPHIC] [TIFF OMITTED] T5920.008
    
    Ms. Matsui. Thank you very much, Chairwoman Norton.
    Now I would like to recognize Mr. Boustany.
    Mr. Boustany. Thank you, Madam Chairman. I will stick to 
the five minute rule as well. I do want to refer to an article 
that came out in the New York Times yesterday that Ms. Holmes 
Norton referenced. The initial response by the Corps was that 
the engineer from the University of California at Berkeley was 
overstating the risk. But the Corps issued a statement saying 
that they would basically go back and reinspect these areas 
where there was so-called rills or furrows. And granted there 
is some ongoing erosion as you construct levees, has the Corps 
completed the reinspection of those areas? And is there still a 
disagreement about the risk? And what can be done?
    We are talking about potential lives here going into the 
next hurricane season. We are also looking at the specter of 
law suits. How can we get everybody together on determining 
what these risks are so that we can construct appropriate 
levees? Mr. Stockton, would you answer that please.
    Mr. Stockton. I cannot respond specifically to the 
allegation. Now I need to explain something about levees. They 
are designed to a certain height, and they are designed to be 
durable, and sustainable. But there is always going to be a 
certain amount of residual risk that there could be a potential 
storm that will exceed that. So what you want is a levee, that 
if overtopped, won't fail catastrophically, that it will resist 
erosion. And it becomes then a balancing act--do you build it 
higher within the resources you have available, or do you build 
it lower but more durable to sustain that overtopping at a 
lower level. You are trying to strike the right balance because 
you can never build something high enough or strong enough to 
resist all possible storm events. So there is always a certain 
amount of residual risk which falls into the Flood Insurance 
Program to cover.
    Mr. Boustany. Clearly, there are designs that you take into 
account and then there are also the soil conditions. I was just 
curious to know, after reinspection have you come out with any 
further statements with regard to the allegations that were 
made by this University of California engineer. Is the Corps 
talking to others in academia who have looked at this 
independently to see if we can come to some kind of an 
agreement as to what needs to be done?
    Mr. Stockton. We work very closely with others, and this 
gets back to the independent technical review. This IPET study 
had over 150 individuals, engineers, scientists from inside the 
Federal Government, academia, outside the Corps of Engineers; 
we have Dutch experts involved in our design teams, we have 
internationally renowned architect engineer firms helping us 
with not only the design but the peer review. It is very 
difficult to respond to allegations that are in the New York 
Times when you do not know exactly where it is, or what they 
are referring to, or the time that they were referring to it.
    Mr. Boustany. I understand.
    Mr. Stockton. So, we take it very seriously. Public safety 
is our primary concern. We are going to provide the best 
possible flood damage reduction, and reduce the risk within the 
resources we have available.
    Mr. Boustany. Thank you, Mr. Stockton. I yield back.
    Ms. Matsui. Thank you. I would like to recognize now Mr. 
Hall.
    Mr. Hall. Thank you, Madam Chair. I have a question for Mr. 
Stockton. Would you support assessments of dams for low-head 
hydro-electric power generation? And how much extra time or 
effort would that take if you were assessing a dam for safety 
and your people are there anyway? I am aware of at least one 
project in Pennsylvania where the Corps is currently involved 
in a low-head hydro project. So there is obviously experience 
and expertise. The question is, while we are at it, how much 
would that add to your job?
    Mr. Stockton. Thank you, sir. I think it is really two 
separate issues. When you are doing the dam safety assessment 
you are looking at the structural integrity of the project. To 
look at a hydropower potential assessment, I know about 20 
years ago we did a nationwide assessment of hydro potential 
throughout the United States.
    But that is more hydrologic, economic evaluation of the 
quantity of water, the amount of head you have, and then 
looking at what kind of capital investment you would want to 
make to produce that hydropower. So I think they are two 
separate activities. I do not think they could be bundled 
together to do them concurrently. There would not be a lot of 
common purpose in doing them. I think it is a great suggestion 
that we do evaluate them for hydropower potential, but it would 
be a different group of people having to do that with different 
skill sets.
    Mr. Hall. Okay. But would it be cheaper or would it not if, 
say, a spillway or a release pipe were being repaired or 
installed, to, if one were going to do a hydro application at 
that dam, to do that at the same time that the repair is being 
made?
    Mr. Stockton. Absolutely.
    Mr. Hall. Okay. And are you, and I guess this would also be 
a question for Mr. Maurstad, are you planning currently for 
increased storm severity and frequency due to climate change?
    Mr. Maurstad. We are. Currently, Congress is looking at 
whether or not we should be moving more forward in doing that 
right now. As we utilize the information that we have available 
to us to determine the premiums for national flood insurance 
policies, we look at what the current circumstances are, what 
the current risk is, and with the current program limitations, 
what premiums can we charge. Clearly, that is one component of 
the overall assessment. Do we need to do more in looking at 
what the potential is for future damages as a result of climate 
change? Arguably, we do. We currently insure about a trillion 
dollars worth of property throughout the 50 States and 
Territories. So we know what the potential downside risk is. 
Are storms going to increase in severity, increase in 
frequency, and what effect does climate change have on that, we 
are going to look at that more closely.
    Mr. Hall. Mr. Stockton, you do not have to add to that, but 
you can if you would like.
    Mr. Stockton. I just wanted to say that we have always been 
in the business of attenuating the hydrograph peaks and valleys 
with droughts and floods. And we continue to adopt and update 
based upon changing hydrologic records, depending upon the 
severity and frequency of those events. So, yes, we are 
adjusting.
    Mr. Hall. We have in my district in the Wallkill River 
Valley a multistage project that the Corps did over the course 
of the last century, the most recent installment of a three-
part planned straightening, clearing and snagging, and 
channeling of the river and its tributaries was completed in 
1984 and there has been no work done since then. This is one of 
the areas where black dirt farmers were completely underwater 
and their planting season was severely disrupted.
    The question is, since the upstream part of the project is 
what remains to be done, how does FEMA or the Corps assess 
whether to straighten a stream or a river, and/or to place 
levees on it versus encouraging development to move out of the 
flood prone areas? Obviously, we have got a lot of not just 
farmers, but homes being built now because of the extension 
North out of the city. Is there a decisionmaking process as to 
whether you straighten a stream, do a project, or induce people 
to move out of that area based on the likelihood of flooding?
    Mr. Stockton. Yes, sir, we have a very comprehensive, 
technically rigorous planning approach where we will look at 
the project, develop alternative solutions, and we will look at 
all those things, look at moving folks out of the floodplain, 
we will look at nonstructural solutions, we will look at 
structural solutions. We will evaluate all of those different 
options and, in conjunction with our local sponsor, we will 
make recommendations, investment recommendations to the 
Administration and Congress based upon all of those factors, 
and it is very project-by-project.
    Mr. Maurstad. FEMA will provide assistance to local 
communities in the development of a local mitigation plan that 
will look at situations and circumstances like you have 
described. But the decisions as to development and whatnot are 
left at the local level. Mitigation projects, by the same 
token, are developed at the local level to determine if there 
are areas that the community would like to have folks relocate 
from, turn back to green space. Again, local decisions. But we 
have mitigation funding programs that are available to help 
assist with the economic aspects of those decisions made at the 
local level.
    Mr. Hall. Thank you, sir. Thank you, Madam Chair.
    Ms. Matsui. Thank you. I would now like to call upon the 
gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you very much, Madam Chairwoman. I had 
the privilege of chairing this Subcommittee for six years up 
until this Congress. In the last Congress, we reauthorized the 
Dam Safety Program Act. Also, I introduced the original 
National Levee Safety Program Act, although we did not complete 
the work on that. Congressman Costello and I a little over a 
year ago toured various water projects for a week in California 
and part of that time we spent in Sacramento and we saw the 
flooding and the levee problems they have had there. So I know 
how important this work is.
    I guess one of the things I would like to point out is that 
we have had a lot of people working on these programs in the 
past. These are not new all of a sudden type situations we are 
talking about here. In fact, I notice in our briefing paper it 
says the Congress directed the Secretary of the Army to 
undertake a national program on the inspection of dams in 1972. 
Then we authorized the first Dam Safety Program in the WRDA Act 
of 1996. The Corps, as one of our key staffers said to me a few 
minutes ago, the Corps wrote the book on levee construction and 
got into it in the early 1800s, and the Dutch even sent their 
experts over here to learn about levees from us.
    So Mr. Stockton, there are a lot of people that are already 
working on all of these program about dam safety and levee 
construction and problems in the Corps right now and have been 
for many years. Is that correct?
    Mr. Stockton. Yes, sir.
    Mr. Duncan. But then I see that the estimate is it would 
take $100 million, $60,000 a mile, just to assess the 1,600 
miles of levees in the central valley of California. Now the 
Corps, by our information, has constructed 9,000 of the 15,000 
miles of levees in this Country. Is that correct or fairly 
accurate?
    Mr. Stockton. I am not familiar with those specific 
numbers, but it sounds close.
    Mr. Duncan. That is what we have in our information here, 
so I assume it is fairly close to being correct. You know, I 
guess the point I want to make is, this work is very important 
and needs to be done, but it also needs to be done in a cost-
effective way that keeps the taxpayers in mind. You know, when 
you say $100 million, I bet that if we put out a contract for 
$50 million to do these assessments that companies would be 
jumping to get it. Also, you might want a Rolls Royce or a 
Mercedes, but a Chevrolet might do just as well to transport 
you to and from where you are going. So I hope that we try to 
do these things in a cost-effective. We need to do them, but I 
hope we do them in a cost-effective way that is fair to the 
taxpayers.
    In addition to that, because we have had so many people 
working on these things for so long, surely we know where the 
greatest threats are or where the biggest potential problems 
are. Do we not have information about that already, Mr. 
Stockton, since we have so many people working on these things 
already?
    Mr. Stockton. Yes, sir. What we have done is we have tried 
to divide this into groups and it really has to do with 
ownership. There are the levees that we designed and 
constructed and we still own, the ones we have turned over to 
local entities to operate and maintain, and then those 
categories of levees that we have adopted into our 
rehabilitation and inspection program. We have a pretty good 
grip on those and those are the ones we are currently 
inventorying. We are also taking steps to get the cost of these 
assessments down. We produced numbers about a year ago based 
upon not knowing that fourth category of levees, all the non-
Federal ones_who constructed them, where they are, or even how 
many there are_and we came up with some rough order of 
magnitude cost estimates. We are going to conduct five beta 
tests the latter part of this year to test the risk assessment 
methodology and to get the rough order of magnitude cost 
estimates down to a reasonable number.
    But as you can imagine, some of these levees were designed 
to current engineering standards, others where you might have a 
farmer's levee out there that you have no technical information 
on when or how it was constructed. And so I think through these 
beta tests of our risk assessment methodology we will come up 
with a much more economical way of doing these assessments.
    Mr. Duncan. All right. My time is up. All I am saying is 
let us just use a little commonsense on this very important 
work. Thank you, Madam Chairwoman.
    Ms. Matsui. Thank you very much, Mr. Duncan. I would like 
now to recognize Mrs. Napolitano for questions.
    Mrs. Napolitano. Thank you, Madam Chair. I am very 
interested in all of the discussion over the dams. Of course, 
Mr. Maurstad, in your testimony you indicate that the Dam 
Safety Act budgets have been declining, and you give 
information about 2003, 2004, but you do not give any 
information on 2005 or 2006 of whether or not it is still 
continuing to decline. That is one area.
    I note the fact that the American Society of Civil 
Engineers gave a 2005 report with a D for the status of the 
infrastructure of America's dams. And following along with Mr. 
Duncan's line is the prioritization of areas where we know that 
you have a greater risk, whether it is earthquake or flood, 
hurricanes, et cetera. How do we tell the States you are not 
putting a focus, you are relying on the Federal Government for 
bailout or for assistance knowing full well that you are in an 
area where you are at risk for a catastrophe of some kind. 
Would you address that.
    Mr. Maurstad. I will try. The reference in the testimony I 
believe was to the declining support at the State level for dam 
safety programs, and that information I believe we generated 
from the National Dam Safety Review Board information. I do not 
think we necessarily solicited that information. It is more of 
a general comment as to this is the environment that exists in 
the States with some of the States that have had revenue 
shortfalls in the previous years. The support for the National 
Dam Safety Program from the Federal Government has remained 
fairly level during that period of time. We continue to do what 
we can to support the States in their efforts.
    If I did not fully address your question, maybe you could--
--
    Mrs. Napolitano. Well, have you been able to identify those 
States whose budgets are getting lower or continue to decline? 
Are those areas where you know they are at risk?
    Mr. Maurstad. I would have to go back and see if we could 
generate that information on specific State-by-State support of 
the Dam Safety Program in their particular State.
    Mrs. Napolitano. Madam Chair, may I ask the Committee to 
get some information on that.
    The other question I have, and we do not touch on that, is 
personnel issues, for both of you, whether you have continued 
to decline in personnel, professional personnel that you can 
rely on to be able to carry out the duties or the work that 
needs to be done for the safety of the dams.
    Mr. Maurstad. Well our level of personnel has not changed 
during my tenure that I am aware of. We continue to have very 
competent people that are working to assist the Dam Safety 
Program. Throughout my particular directorate, of course, we 
all face transition and folks coming in and going out of 
Federal Government service, but I think it has been fairly 
stable in the dam safety area, and of good quality people.
    Mrs. Napolitano. Has your budget been as stable?
    Mr. Maurstad. Again, the budget has been relatively stable 
over the course of the last few years. We continue to try to 
put forth the necessary resources. The grants have remained 
fairly level. We recognize that there is always a need for 
greater support and we continue to try to find ways to do that.
    Mrs. Napolitano. I am sorry but my time is running out, 
sir. I really wanted more focus on whether you are getting 
enough funding to be able to do the review of the safety of the 
dams with the personnel that you have. Every year I know almost 
every agency's budget has been cut. So how then would you be 
able to do the job, if that is happening to your agency?
    Mr. Maurstad. This is not an area where the budget has been 
cut. I think we have remained fairly close to the authorized 
levels. This is an area where there is a great need out there. 
It is a relatively small program that has done fairly well with 
the resources that it has been provided. The statistics in my 
testimony I think indicate that a lot has been done. There is 
still more that needs to be done.
    Mrs. Napolitano. If you have been able to put in some kind 
of format the catastrophes that have happened in the last, say, 
five years that have indicated an increase of need of services, 
an increase in budget for services, because we have had some 
major catastrophes, and how can we look forward to dealing with 
those in the future?
    Mr. Maurstad. Well, again, it really would be necessary to 
go back and see which of those disasters were less than 
whatever the design level for the particular control structure 
would be. Again, I have to harken back to we have developed a 
risk consequence equation in the Country that bases resources, 
both Government and private sector, on trying to withstand a 1 
percent annual chance flood event. And let me just speak to the 
area of flooding. There are many events that occur every year 
that exceed a 1 percent annual level of opportunity to occur. 
That is the balance that we try to pose. That is why we 
strongly encourage communities and individuals to mitigate 
against greater storm levels than that. That is just a minimum 
Federal level requirement. It is not an indication that a 
community or an individual is not at risk for flooding or other 
type of hurricane-related event.
    The Dutch has been mentioned a couple of times. After their 
great catastrophe over half a century ago, they developed a 
system that is not a 1 percent annual level, but a one one-
hundredth of 1 percent annual level. We have a different 
attitude toward risk in this Country. I am not quite sure why. 
But to be able to answer your question more pointedly, a great 
deal of research would have to be done on the disasters that 
were caused, that were less than the 1 percent annual chance.
    Mrs. Napolitano. Thank you, Madam Chair. I would ask Mr. 
Stockton if he could reply in writing to any of the questions 
that he may.
    Mr. Stockton. Yes, ma'am.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T5920.009
    
    Ms. Norton. [presiding] I thank the gentlelady very much. 
Mr. Dent.
    Mr. Dent. Thank you, Madam Chairman. Mr. Maurstad, my 
question deals with some issues I have been confronting in 
eastern Pennsylvania. As you are aware, we have had some major 
weather events in eastern Pennsylvania; three significant 
floods in the past two years. There has been quite a bit of 
public discussion about the reservoirs up in New York State and 
at what level of capacity they should, and that if we had less 
water in the reservoirs and provide for releases of water, that 
might somehow mitigate flooding downstream or down the 
Delaware. This has been the source of a number of debates and 
discussions among the Delaware River Basin Commission, FEMA 
officials, Department of Environmental Protection officials. I 
have had meetings and a lot of conversation about it. I just 
want to get your take on this, about releases of waters from 
reservoirs, in this case the ones up in New York State that 
feed New York City. How do you think that would impact on flood 
mitigation efforts on rivers like the Delaware?
    Mr. Maurstad. Well my reaction would be that our programs 
can be affected by the decisions that are made by State and 
local governments. And as a result, we certainly want to be a 
part of those discussions to know how our programs, 
specifically, National Flood Insurance Program, and our 
policyholders would be affected by that.
    I do not have the expertise to know the proper level of a 
particular reservoir in a circumstance like that. Again, we try 
to look at and understand and assess what the risk is in a 
particular area against the 100-year level flood that I talked 
about before. But it is really outside the scope of the 
National Flood Insurance Program to weigh in on that, sir.
    Mr. Dent. I guess my main comment would be we would like to 
continue to see an active FEMA presence in these discussions as 
we wrestle with the issues of flooding along the Delaware, 
which has become more pronounced in recent years.
    My second question also to Mr. Maurstad. Last year when we 
held a similar hearing, we heard that FEMA was having 
difficulty developing specific criteria to define what a State 
regulated dam is for purposes of allocating State assistance 
awards. Has FEMA developed a definition? And if not, how is 
this being addressed?
    Mr. Maurstad. I believe the criteria that you requested is 
currently under review by the National Dam Safety Board. I 
think a draft has been developed, it is going through the 
decisionmaking process of the Board, and would anticipate that 
a proposal will be provided to the Dam Safety Review Board when 
it meets in June, and we will know the outcome at that point to 
that draft performance guidance.
    Mr. Dent. Thank you. The National Weather Service too has 
advised that the eastern part of the United States is in a 
tropical weather pattern where we should anticipate additional 
extreme storm events. Has FEMA developed any strategies under 
the National Dam Safety Program for mitigating against an 
increased likelihood of these floods?
    Mr. Maurstad. Well I think we expect that there is going to 
be activity, and so the prospect or the likelihood does not 
drive our actions as much as just making sure that we do what 
we can to be prepared--to have planned, to have exercised, to 
have programs in place--so that if an event happens in a 
particular dam area, the community and individuals will know 
what actions to take. Part of that is to try to encourage 
individuals and communities to take actions today that will 
reduce their vulnerability in the future. So I would say our 
actions are less driven by forecasts and more driven by what we 
understand events are going to happen somewhere in this Country 
and we have to be prepared for them.
    Mr. Dent. I thank you, Mr. Maurstad. Mr. Stockton, the 
Corps recently produced an inventory of levees at risk of 
failure due to lack of proper maintenance. What can be done to 
ensure that levees are properly maintained by the responsible 
parties once they are built?
    Mr. Stockton. Yes, we have put out guidance to more 
strictly enforce our existing standards. What we have is our 
Public Law 84-99, Rehabilitation and Inspection Program. And 
under that, if a levee owner's levee is in that program, we 
will actually rebuild and restore that levee if it is damaged 
to 100 percent of what its pre-storm condition was. So we 
encourage them and incentivize the non-Federal owners to 
maintain them at a high standard so they can stay within this 
program. If they are levees of maintenance concern where they 
do not maintain them to a certain standard, then they are no 
longer in that program.
    Mr. Dent. Thank you, Mr. Stockton. Madam Chair, I yield 
back at this time.
    Ms. Norton. Thank you, Mr. Dent. Mr. McNerney.
    Mr. McNerney. Thank you, Madam Chair. Mr. Maurstad, you 
stated that FEMA is evaluating levee safety and decertification 
and the impact that will have on insurance. A lot of my 
constituents are going to be impacted by this, so I would like 
to develop some degree of comfort with the outcome.
    What are the timelines? I see my notes say there is going 
to be about two-thirds of the levees will be inspected and 
judged by the end of this year.
    What sort of scientific tools are going to be brought to 
bear on this? For example, $20 million was spent on a levee in 
our district recently and now they are worried that it is going 
to be decertified. So we need to know that if money is spent on 
these levees that it is not going to be decertified soon 
afterwards.
    And will the outcome be used to decide what the priorities 
are for levee work from the Corps of Engineers?
    Mr. Maurstad. Thank you. I can answer part of that question 
and part of it may be more in Mr. Stockton's area. FEMA does 
not certify the levee. What we are doing, in coordination with 
the Corps' levee assessment, is as we are going through a 
mapping process in a particular county or a particular 
jurisdiction, we are asking the owners of the levees to provide 
to FEMA certification that that levee either meets or continues 
to meet the 1 percent annual chance standard. We develop 
processes during the map development to allow communities the 
adequate time, if they believe that their levees are 
certifiable, to provide us with that information. And we are 
coordinating, again, with the Corps while that process is going 
on.
    Our role in this is to make sure that as we develop new 
modernized, digital flood maps that they accurately relay the 
risk of flooding to that particular jurisdiction. Because we 
think it is important that people know what their risk is to 
property and to life associated with the levee, and that the 
levee in fact does provide the level of protection that people 
believe that it does. So it is that coordination that is 
occurring with Corps that I hope provides you with the 
assurance that you need.
    Mr. Stockton. Yes, sir. We provide standards for levee 
certification for them to resist the one year exceedance flow 
event. We do that certification for levees which we own. It is 
the non-Federal owner's responsibility to do the certification 
for their levees based upon those standards.
    I think the scenario you are describing is where the 
situation changes; you have a new hydrologic record, a 
different flow frequency, you might have new information on the 
under-seepage underneath the levee, you might have erosion, you 
might have incomplete maintenance. So that is why we have the 
Inspection of Completed Works Program, to annually reassess 
whether those levees are meeting the standards, and where they 
are not they become decertified.
    Mr. McNerney. Okay. I yield back at this point.
    Ms. Norton. Thank you very much, Mr. McNerney. Mr. 
Carnahan.
    Mr. Carnahan. Thank you, Madam Chair. And thanks again to 
the panelists for being here. I just had a couple of quick 
questions I wanted to continue with. In my home area in St. 
Louis, Missouri, we have a very large levee called the St. 
Louis Flood Protection System, which I am sure you are familiar 
with. During the great flood in 1993, a section of the flood 
wall failed even though the water level was below the height 
for which the flood wall was designed.
    Today, 14 years later, the problem has still not been 
fixed. My constituents, thousands of acres of commercial/
industrial property, railroad tracks and roads would be 
affected if that were to fail. Some insurance experts have 
estimated that $3 billion worth of claims could result during 
the next disastrous flood if the wall were to fail.
    The Army Corps has expressed an understanding of the 
severity of the situation, yet the leadership refuses to spend 
the necessary resources because it classifies the flood wall as 
``designed efficiency.'' If the Corps does not address this 
problem immediately, the City of St. Louis and the economy of 
our entire region could be devastated during the next great 
flood. Our actions now will determine whether or not the next 
great flood is the next great disaster.
    During Fiscal Year 2006, the Army Corps spent $30 million 
on levee inventory. Can you give me, this is for Mr. Stockton, 
what is the status of that inventory, and is the Corps making 
an effort to prioritize those levees within that inventory?
    Mr. Stockton. Yes, sir. As I said in my statement, we are 
about two-thirds of the way through the inventory of those 
levees within our system. Once we know how many levees we have, 
and where they are, then we can begin the assessment phase. We 
have half a dozen of these pilot studies to test the assessment 
risk methodology that we are going to use to assess the levees. 
We will be moving into that phase and we really have not yet 
begun doing the assessments, we are just doing the inventory at 
this point.
    Mr. Carnahan. And are you looking at all levees, or just 
only Corps levees?
    Mr. Stockton. We are looking at levees that are in our 
program. Those are the federally owned levees, they are levees 
that we have constructed and turned over to the local entities 
to operate and maintain, and we are looking for ones that have 
been constructed by non-Federal entities and have been brought 
into our Rehabilitation and Inspection Program. It does not 
include the universe of levees that have been constructed by 
local entities that are not in our program and are not in the 
National Flood Insurance Program. One of the reasons for doing 
the inventory is to figure out the size and magnitude of the 
problem, where all the levees are.
    Mr. Carnahan. And what is the plan for looking at those 
levees that do not fit into that universe?
    Mr. Stockton. Well, once we know where they are, once we do 
the inventory, we will have a better sense of how many there 
are, the extent, and locations.
    Mr. Carnahan. Because one of my concerns also is about the 
lack of coordination among local levee districts. They often 
are very focused on their parochial needs of their own 
particular levee district. But there seems to be a real 
hodgepodge of communication between those various districts 
where one's failure or success could really impact the others 
along in their area of the river. Do you see a need for 
increased coordination among these districts, and do you have 
any recommendations on how to address that?
    Mr. Stockton. Yes, sir. That was one of the key lessons 
learned coming out of our engineering forensics after Katrina. 
We did not have a truly integrated, comprehensive system. We 
had a collection of individual projects that were at different 
stages of completion, at different heights, and there were gaps 
between them. Part of that has to do with local 
responsibilities in each levee district. Each entity is 
responsible for their own funding, their own operations, their 
own maintenance, their own repair, and there is no integrated 
approach at the State level.
    Now the solution in the case of New Orleans was to 
consolidate a lot of those individual levee boards into an east 
bank and west bank levee board, which gives you fewer levee 
entities to actually work with so you get more uniformity in 
policy, and construction, and operations, and maintenance.
    Mr. Carnahan. Thank you. Thank you, Madam Chairman.
    Ms. Norton. Thank you very much, Mr. Carnahan.
    I want to thank both of these witnesses again. Very helpful 
and informative testimony. Thank you.
    Ms. Norton. I invite the next witnesses to the table.
    Mr. Larry Larson, Executive Director, Association of State 
Floodplain Managers; Warren Williams, Director, General 
Manager-Chief Engineer, National Association of Flood and 
Stormwater Management Agencies; Larry Roth, Deputy Executive 
Director, American Society of Civil Engineers; John Moyle, 
Manager, Dam Safety Section, New Jersey Department of 
Environmental Protection, Association of State Dam Safety 
Officials.
    Mr. Larson, if you want to go first, you may proceed. I 
will ask the witnesses to keep their testimony within five 
minutes, if at all possible, recognizing that your full 
testimony will be entered into the record.

 TESTIMONY OF LARRY LARSON, EXECUTIVE DIRECTOR, ASSOCIATION OF 
   STATE FLOODPLAIN MANAGERS; WARREN D. ``DUSTY'' WILLIAMS, 
DIRECTOR, GENERAL MANAGER-CHIEF ENGINEER, NATIONAL ASSOCIATION 
OF FLOOD AND STORMWATER MANAGEMENT AGENCIES; LARRY ROTH, DEPUTY 
 EXECUTIVE DIRECTOR, AMERICAN SOCIETY OF CIVIL ENGINEERS; JOHN 
 MOYLE, MANAGER, DAM SAFETY SECTION, NEW JERSEY DEPARTMENT OF 
   ENVIRONMENTAL PROTECTION, ASSOCIATION OF STATE DAM SAFETY 
                           OFFICIALS

    Mr. Larson. Thank you, Chairwoman Norton. Thanks to both 
Subcommittees for holding this joint hearing on this important 
matter.
    My name is Larry Larson. I have worked for 40 years at the 
local, State, and national level to reduce flood losses. I 
managed the levee safety and dam safety programs for the State 
of Wisconsin for 30 years. I am a registered professional 
engineer in California and Wisconsin.
    We all know that levees can lead to catastrophic losses and 
that not just the levees in New Orleans that we saw in 2005. We 
have had a lot of discussion about levees elsewhere in the 
Nation today, including Sacramento where the levees are in far 
worse shape than they were in New Orleans prior to Katrina. We 
must have programs, policies, and institutions that can 
adequately handle these events and efficiently use taxpayer 
money and build a sustainable future.
    One thing I would like my testimony to do today is to 
hopefully disabuse anyone of the notion that our current system 
of managing flood risk in this Nation is working. It is not. 
And we are not going to solve it by tweaking around the edges. 
And we are not going to solve it by throwing a bunch of money 
at it. We need an approach that is entirely different than our 
current model.
    Our current model is the Federal top-down model, where 
locals, through the Congress, come up and ask for levees and 
dams, Congress provides the money, the Corps builds it, and 
then turns it over to the local sponsors for operation and 
maintenance; then things start to fall apart. We have no entity 
to oversee and continue to oversee those activities and ensure 
that levees and dams continue to be safe. The only way we are 
going to get there is to put the entity in charge of that 
activity that has the actual authority in the Constitution to 
do it, and that is the States.
    Why are States and locals not doing more? Mainly because 
they think this is a Federal Government problem. They have 
gotten to that notion because of the 1936 Flood Control Act, 
the National Flood Insurance Program, the Disaster Relief Act, 
and now we are talking about the Dam Safety Act that has been 
around for 10 or 12 years. And as you just heard, FEMA is 
testifying that as local and state governments assume the 
Federal Government is doing something on dam safety, the State 
governments start to back away from providing funding for dam 
safety. That is not a model that is working.
    We need to put the States in charge and we need to do it in 
a way that has incentives and disincentives. The States have 
the ability to prevent future disasters. Under the 
Constitution, they are the only ones that have the ability to 
do things like land-use management, building codes, regulatory 
authority over levees and dams. The Federal Government does not 
have that authority, only the States have that. If we get them 
to do it and do it right, we are going to reduce Federal 
disaster costs, and that is what we are all seeking.
    ASFPM has always urged the Nation to seek other 
alternatives than levees. Levees should be the option of last 
resort. And if we invest in levees at all at the Federal level, 
it ought to be levees that provide 500-year protection. As we 
discovered, 100-year protection is not doing it, and it will 
not do it especially where you have critical facilities like 
hospitals, police and fire stations, emergency shelters, water 
supply, all the rest of that. We need to change what we are 
doing and build only 500-year or higher levees with Federal 
dollars.
    In terms of incentives and disincentives to get States and 
locals to act, we have always favored a sliding cost-share. 
States and locals that do more should get a better cost-share 
in Federal programs. Right now that is topsy-turvy--those that 
do the least get the most Federal money. We need to change 
that. The States and locals that spend money to reduce risk 
should be able to bank that money, for example, toward the non-
Federal share of the next disaster:
    Disincentives can be provided in Public Law 84-99 program, 
for example, needs to be properly administered so that it 
withholds support for those levees that are not properly 
operated and maintained.
    The first steps in this program could be we suggest that 
you instruct the Corps to complete the national levee 
inventory. That is essential so that we know the size of the 
problem and the people and property at risk, and then to 
establish a National Levee Safety Committee that could design a 
program and provide it to you as a suggestion for subsequent 
legislation to set up the actual program itself.
    We do not support use of the current dam safety model as 
the approach to use. We do not believe it has the appropriate 
teeth to ensure that dams have become safer in our Nation, you 
have seen the data on that, nor are States building up their 
dam safety programs. But we think there are approaches that can 
be used, and we are here to do what we can to help you support 
moving ahead in that respect. Thank you very much.
    Ms. Norton. Thank you very much, Mr. Larson. Mr. Williams.
    Mr. Williams. Thank you, Madam Chairman. While I represent 
the flood control district of Riverside County, a rapidly 
urbanizing county in southern California, located about 50 
miles east of Los Angeles, I am here appearing before you today 
also representing NAFSMA, the National Association of Flood and 
Stormwater Management Agencies.
    NAFSMA is a national organization which represents more 
than 100 local and State flood control agencies across the 
Nation, serving a total of more than 76 million citizens. As a 
result, we have a strong interest in the issues the Committee 
is addressing today. We thank you for the opportunity to 
address this Committee.
    Well before Hurricane Katrina, NAFSMA was concerned about 
the impact of levee safety on both the Corps of Engineers' 
flood management program and FEMA's Map Modernization Program. 
We commend both FEMA and the Corps for the commitment to tackle 
these difficult issues and for their efforts to work closely 
together to define and coordinate their messages to the local 
and State flood management agencies.
    NAFSMA has strongly stressed the need for and supported the 
creation of a federally-funded national levee inventory 
program. Since this issue was first raised, the Corps and FEMA 
have made a great deal of progress in identifying deficient 
levees throughout the Country and have set up a process for 
certifying levees. While NAFSMA applauds the interagency 
efforts in this direction, we are concerned that the allotted 
time for correcting problems and achieving certification is 
insufficient and that there is a lack of resources available to 
accomplish this effort.
    While initially the mandated compliance period seemed 
reasonable, early indications are they may not be. Different 
interpretations of guidance documents are already occurring, 
causing much confusion. Adequate funding resources are not 
available at the Federal level to carry out these 
certifications. And in some areas local governments and 
regional entities are concerned about where to get the 
necessary funds. And there is a mounting worry as to whether we 
will be able to find private engineering firms willing to sign 
the needed certification documents due to liability concerns.
    It is clear that we need to move forward with a national 
levee Inventory and certification program, but it needs to be 
done in a thoughtful and pragmatic manner. The process needs to 
ensure both public safety and provide realistic expectations 
that can be met by the owners and operators of the levees.
    To that end, NAFSMA strongly supports the establishment of 
a National Levee Safety Commission. This commission will be 
charged to report back to Congress on the need, potential 
structure, and possible Federal, State, and local funding 
resources that should be directed to this program. Federal 
representatives, as well as appropriate representatives from 
States and local and regional governments, as well as the 
engineering community, need to be involved in this effort.
    Another issue I would like to bring to your attention is 
the need for streamlined permitting for maintenance activities 
of all flood control projects, including levees. Although 
maintenance issues such as addressing vegetation on levees and 
eliminating burrows within levees would seem simple at first, 
it is important to note it is often very difficult and time 
consuming to secure the necessary regulatory permits to carry 
out this work. These issues become even more difficult when the 
vegetation provides habitat for an endangered species or the 
burrowing animal happens to be endangered itself.
    Many of our levees are in areas with numerous endangered 
species. In Riverside County alone, for example, there are 91 
species with a status of either endangered, threatened, or 
proposed for listing. Our agencies have often been delayed in 
carrying out routine maintenance activities needed to keep 
their flood management system operating at optimal levels by 
their inability to obtain necessary Federal permits in a timely 
manner, if at all. Local and regional agencies have even been 
faced with one Federal agency telling them that a flood control 
facility must be cleared or any flood insurance claims will be 
subrogated against them while at the same time another Federal 
agency was preventing them from obtaining the necessary permits 
to do the work. Clearly, there must be a means to coordinate 
these conflicting concerns to meet the over-arching national 
and interstate responsibility of ensuring protection.
    For existing flood control projects, we need to develop a 
mechanism to ensure the necessary regulatory permits will be 
provided for operation and maintenance in a timely manner, and 
that endangered habitat and species are protected and water 
quality regulations are met. For new federally-partnered 
projects, the needed regulatory permits need to be part of the 
original design and the maintenance manual. And in cases where 
emergencies exist or potentially could exist, streamlined 
permitting processes must be made available to local agencies.
    The last issue I would like to speak to today is the need 
to continue adequate funding for FEMA's Map Modernization and 
mitigation programs. Although I have focused much of my 
testimony on the Corps' role in a national levee safety 
program, it is critical to note that accurate Flood Insurance 
Rate Maps are an essential part of national levee safety and 
flood risk management activities. To ensure that these maps are 
available to all levels of government as soon as possible, 
NAFSMA strongly supports continued adequate funding of FEMA's 
Map Modernization Program and its mitigation programs.
    In closing, NAFSMA very much appreciates the opportunity to 
present our thoughts on these critical national issues to the 
Subcommittee for consideration. We stand ready to work with you 
on these important issues and would welcome your questions. 
Thank you.
    Ms. Norton. Thank you, Mr. Williams. Mr. Roth.
    Mr. Roth. Madam Chair, my name is Larry Roth. I am the 
Deputy Executive Director of the American Society of Civil 
Engineers. I am a licensed professional engineer and a licensed 
geotechnical engineer in the State of California. Before 
joining ASCE staff, I had 30 years of experience in water 
resources engineering, including dams, levees, and canals.
    I am very pleased to appear here today to testify for ASCE 
in strong support of H.R. 1098, the Dam Rehabilitation and 
Repair Act of 2007, which would amend the National Dam Safety 
Program Act to provide critically needed funding for repairs to 
publicly owned dams across the United States.
    ASCE also supports enactment of a national levee safety 
program modeled on the National Dam Safety Program. We believe 
that H.R. 1587, the National Levee Safety Program Act of 2007, 
includes all the necessary components for a vital nationwide 
levee safety program.
    Like all man-made structures, dams deteriorate. Deferred 
maintenance accelerates deterioration and causes dams to be 
more susceptible to failure. As with other critical 
infrastructure, a significant investment is essential to 
maintain the benefits and assure safety.
    In 2005, ASCE issued the latest in a series of assessments 
of the nation's infrastructure. Our 2005 Report Card for 
America's Infrastructure found that the number of unsafe dams 
in the United States increased by a stunning 33 percent between 
1998 and 2005. There are now more than 3,300 unsafe dams 
nationwide. An alarming number.
    The nation's dam safety officials estimate that it would 
cost more than $10 billion over the next 12 years to upgrade 
the physical condition of all critical non-Federal dams. The 
problem of hazardous dams is enormous. As the Congressional 
Research Service stated recently, unsafe dams represent a 
serious risk to public safety. The CRS study said: ``While dam 
failures are infrequent, age, construction deficiencies, 
inadequate maintenance, and seismic or weather events 
contribute to the likelihood of failure.'' To reduce the risk, 
regular inspections are necessary to identify deficiencies and 
then corrective action must be taken.
    Although catastrophic failures are rare, there were over 
1,000 dam safety incidents, including 129 failures, between 
1999 and 2006. The number of high hazard dams, dams whose 
failure would cause loss of human life, is increasing 
dramatically, largely because of downstream development. By 
2005, the number of high hazard-potential dams totaled more 
than 11,000 across the Nation.
    The National Dam Safety and Security Act of 2002 provides 
funding that has improved dam safety programs. Unfortunately, 
it does not provide financial assistance for needed repairs. 
According to the results of a study by the Association of State 
Dam Safety Officials, the total investment needed to bring U.S. 
dams into safety compliance or to remove obsolete dams tops $30 
billion.
    That is why the bill sponsored by Representatives John 
Salazar and Randy Kuhl, H.R. 1098, the Dam Rehabilitation and 
Repair Act of 2007, is so badly needed. The bill would provide 
a modest $200 million over five years for the repair, 
rehabilitation, or removal of non-Federal, high hazard publicly 
owned dams. ASCE strongly recommends that Federal legislation 
like H.R. 1098 be enacted to provide a funding source for the 
repair and rehabilitation of dams in the United States.
    ASCE recently provided a detailed external review of the 
U.S. Army Corps of Engineer's performance evaluation of the New 
Orleans hurricane protection system during and following 
Hurricane Katrina. We have summarized our findings and a 
recommendation in this report, The New Orleans Hurricane 
Protection System: What Went Wrong and Why?, which will be 
released to the public on June 1.
    One of our key recommendations is that Congress should 
enact legislation to establish a national levee safety program 
that is modeled on the successful National Dam Safety Program. 
ASCE strongly supports the enactment of Federal and State 
legislation to protect the health and welfare of citizens from 
the catastrophic effects of levee failure. A bill introduced by 
Representative Jean Schmidt of Ohio would satisfy virtually all 
of these important requirements.
    Thank you, Madam Chairman. That concludes my statement. I 
would be pleased to answer any questions.
    Ms. Norton. Thank you, Mr. Roth. Mr. Moyle.
    Mr. Moyle. Good afternoon. My name is John Moyle. I am a 
licensed professional civil engineer with the New Jersey 
Department of Environmental Protection. I am responsible for 
New Jersey's dam safety program and flood control program. I am 
past president of the Association of State Dam Safety Officials 
and a member of the National Dam Safety Review Board under 
FEMA.
    On behalf of the Association, I would like to thank 
Chairwoman Norton and the Members of the Subcommittee for 
having this hearing. The Association and I are very pleased to 
have been afforded the opportunity to provide testimony 
concerning the condition of the Nation's dams and the critical 
role of the Federal Government in the safety of dams.
    The Association is a national nonprofit organization of 
more than 2,300 members including State, Federal, and local dam 
safety professionals dedicated to improving dam safety through 
research, education, and communication. The Association 
represents the dam safety programs of the States and our goal 
is to reduce the loss of lives by establishing strong dam 
safety programs.
    The State dam safety programs regulate 86 percent of the 
83,000 dams in the United States. Table 1 of our written 
testimony provides a breakdown per State. The States and these 
programs look to Congress and the Federal Government for their 
continued leadership and support toward strong dam safety 
programs. Dramatic incidents and dam failures in the United 
States have shown that impounding water is a hazardous 
activity.
    While the National Dam Safety Program has greatly improved 
the safety of our Nation's dams, the safety of dams requires 
more attention from national policymakers. Events over the past 
few years illustrate the need. The years of 2005 and 2006 saw 
the levee failures in New Orleans, the emergency evacuation of 
the town of Taunton, Massachusetts, below the failing dam, the 
failure of the Taum Sauk Dam in Missouri, the fatal collapse of 
the Kaloko Dam in Hawaii where seven people lost their lives, 
the public outcry from the looming threat posed by the Wolf 
Creek Dam in Kentucky, and just three weeks ago in New Jersey 
during the nor'easter and Presidential Declaration, we had a 
State highway embankment fail which formed an earth dam for 
Rainbow Lake. These events have again brought focus to the 
vulnerability and potential consequences of deteriorating and 
unsafe dams.
    The National Dam Safety Program exists today and is 
administered by FEMA. For ten years the program has provided 
valuable assistance to State dam safety programs, funding 
critical training for State engineers and providing technical 
research. Additionally, the program directs the Corps of 
Engineers to maintain a national inventory.
    The modest increases authorized for the National Dam Safety 
Program last year have not been budgeted as part of FEMA's 
mitigation program. In fact, funding levels for the State 
Assistance Grants have been creeping downward for the past five 
years. These grants need to be fully funded. I ask you to take 
a look at Table 2 where it shows the average State grant is 
approximately $50,000 per year. Should an increase in this 
budget occur, it will allow for the hiring of more dam safety 
inspectors, provide better emergency action planning, and 
encourage States to do more enforcement on unsafe structures. I 
also suggest that you look at Table 3 where the States have 
identified what additional measures could be implemented if 
there was additional funding into the program.
    Dam safety, however, requires more than what the National 
Dam Safety Program provides. Inspections and education alone 
will not substantially improve dam safety. Reconstruction 
funding is needed for both public and privately owned dams. 
H.R. 1098, the proposed national dam rehabilitation funding 
program, is a great beginning to address publicly owned dams.
    According to reports submitted by the 50 States, the number 
of deficient dams has risen by 80 percent since 1998. Also of 
concern is a dramatic nationwide increase in the number of high 
hazard-potential dams since 1998. The number of high hazard 
dams have increased by 28 percent. This increase is not due to 
the construction of new dams, but the increased development 
downstream of existing dams.
    Dam repair costs throughout the United States is estimated 
by the Association to be over $30 billion. Table 4 shows 
potential funding assistance that each State could receive 
under H.R. 1098 to repair unsafe public dams. Currently, New 
Jersey has a low interest program to fund dam repairs and the 
Federal program would leverage these costs so that we could 
improve more critical dams in New Jersey.
    Thank you again for your time and giving us this 
opportunity to discuss this important topic. The Association 
requests that the Subcommittee recognize the enormous value of 
our Nation's dams and the increasing concerns for public 
safety. We request your support for an increase in funding to 
continue the National Dam Safety Program, and for passage of 
H.R. 1098. We would also like to thank Congressman Salazar and 
Kuhl for their commitment and support through the introduction 
of H.R. 1098. The Association is grateful for the 
reauthorization which extended and increased funding, but we 
need to have a more aggressive management of this program and 
proper funding to achieve the results the people downstream 
below these dams expect. The Association also supports the 
establishment of a national levee program. Within our written 
testimony we outline seven principles for implementing an 
effective program.
    Thank you. If you have any questions, I would be happy to 
answer.
    Ms. Norton. Thank you very much, Mr. Moyle.
    Let me ask, actually all of you are qualified to answer 
this question, but it is the American Society of Civil 
Engineers that indicates that independent peer review should be 
required for every levee or significant modification of a levee 
system. Perhaps you heard me inquire about peer review, given 
some emerging criticism of the levees in and around New Orleans 
that is now developing. Have any of you advised, given peer 
review, or know of peer review on any of the Gulf levees now 
under construction? Mr. Roth?
    Mr. Roth. No, ma'am. ASCE has not been involved in peer 
review of levees that are currently under construction. Of 
course, IPET, which Mr. Stockton referred to, the Interagency 
Performance Evaluation Task Force by the Corps of Engineers to 
identify the reasons for the behavior of the hurricane 
protection system in New Orleans, ended up providing results 
that are being incorporated into construction, and that IPET 
study was peer reviewed by ASCE. But we have not been involved 
directly in the peer review of construction documents for the 
repairs. I might add, Ms. Norton, our policy on peer review 
does not require peer review for every levee, just for levees 
that pose a significant risk to human health and safety.
    Ms. Norton. Well you would certainly categorize, or would 
you, the levees being constructed around New Orleans and the 
Gulf Coast as meeting that standard?
    Mr. Roth. Yes, ma'am.
    Ms. Norton. Are any of you aware of any peer review that is 
taking place of the construction of any of those levees? It is 
important for us to just understand what the profession 
understands to be the case. The fact is that I think you could 
discern from the responses of the Corps of Engineers 
representative that the problem did not seem to be that they 
would have chosen the particular reinforcement that is used, 
but it is a question of funding.
    Some of us are very worried, particularly in light of 
global warming, the unpredictable nature of flooding generally 
today, and are worried particularly about a city that is under 
water, in any case below sea level, excuse me, and certainly 
was under water. Costs are a significant factor but it boggles 
the mind to imagine what we would all think of ourselves if 
there were a major storm.
    I am very aware of the Corps and what it has gone through--
the Corps is directly responsible for much of what was done in 
the District of Columbia for a hundred years because there was 
not any home rule here--and of the need to strike a balance. 
One wonders what the balance should be in a city, a major 
American city that provides oil to the United States of 
America, a major American city which was the major city before 
Katrina for providing revenue for the entire State.
    One wonders how one should proceed, particularly given, let 
us face it, all kinds of cost considerations that we ourselves 
impose, particularly now that there is a new Congress 
submitting ourselves to what we call pay-go, something we have 
not had for the last dozen or so years. Very, very strict 
discipline, as it says, hey, anything you want to do you have 
to pay for. This is a most difficult process.
    So I do not ask this except to find some objective way, now 
I am not sure all of you are objective either, some of you have 
a vested interest also, but maybe the National Academy of 
Sciences. Ultimately you get people from the profession in any 
case to tell you what the real deal is. But I do believe that 
somehow or the other Congress has to come to grips with what we 
are doing there and of what we are requiring of the court to 
do.
    There was testimony I think from you, Mr. Larson, about the 
top-down notion. You were very clear that this just is not 
working, that the system we have in place is not working. That 
we give money to those that do not do as well. I do not know, I 
would have to take a look at them. They also may be the people, 
the States who are least able to do as well.
    I have no idea whether they would have a good excuse or 
whether they are becoming, as some of you imply in your 
testimony, more dependent on the Federal Government. Hey, you 
need not. Under pay-go, all I can tell you is that you need 
not. We will be fortunate enough to do what we should do at the 
levels that are even now expected of us, which are nowhere near 
what they should be.
    But there is State responsibility largely here. As I said 
in my opening statement, there is one State that does not have 
any system. Imagine that. I do not understand why Alabama does 
not, but it does tell you that States can go from very 
substantial levels of responsibility to none. But if there is a 
dam failure, everybody will look to FEMA. My Subcommittee has 
jurisdiction over FEMA.
    So I really have two questions flowing from this. First, 
with responsibility largely in the States, which I assure you 
it will continue to be, this is a Federal system, we believe in 
federalism, but we also have the obligation to protect the 
taxpayers. Mr. Larson says, well, you ought to be paying more 
attention to the floodplain, implying less attention perhaps to 
the dam itself. I want to hear from him on that, number one.
    Number two, in light of the fact that a dam giving away 
leaves us with a version of Katrina, with huge, huge impact on 
taxpayers, the question becomes, what is the response? How does 
the Federal Government, given the State system in place, carry 
out its responsibility to protect the taxpayers and to protect 
the citizens from the impact of dam failure? Would, for 
example, more rigorous Federal regulations help accomplish some 
of this purpose regarding safety perhaps?
    So if you would take that two-part question. Those are 
essentially my questions and they are for any or all of you.
    Mr. Larson. I will start, Congresswoman. I think you have 
thrown out some real concerns that the Nation faces at how we 
are going to deal with this issue. Remember what the Corps of 
Engineers just testified to. In New Orleans, they now have a 
level of protection that was pre-Katrina and they have now 
determined that is about a 100-year level of protection. That 
means you have a one in four chance of that levee overtopping 
in a 30 year period.
    Is that adequate protection for the City of New Orleans? I 
surely would not think it was. I would not live there, I 
guarantee you that. And I do not think that we should expect 
that we are going to protect highly urbanized areas with those 
levels of protection. But now there is a real problem. If that 
is not adequate, we need a 500-year level in New Orleans. What 
is the cost of that and how are we going to pay for it? Those 
are critical issues.
    There are two basic concepts that ASFPM supports. One is, 
those people who live at risk should pay the cost of living at 
risk. Now we tend to spread the costs a lot in this Nation 
among those at risk. With more and more knowledge about where 
risk exists, we can help people make those kinds of decisions. 
But we are not doing that. We are letting people build where 
they want to and then we are backing them up with Federal 
disaster relief and so on. We have got to reach a better 
balance on that.
    Also, we have got to put the States' feet to the fire. They 
are the ones who have the authority. The Feds cannot go out and 
regulate dams and levees. They do not have land-use authority. 
You cannot pass a law that says the Corps of Engineers should 
go out and regulate these levees. They can have carrots and 
sticks in their programs to say if you do not do this you will 
not get this help and so on, but they cannot regulate. The 
States can do that. But we must get the States to the table in 
a shared program approach so that they accept the 
responsibilities and then provide them incentives and 
disincentives for doing that. And until we reach that point, we 
will continue to lose. Before Katrina, the average annual flood 
losses in this Nation were going up; they were four times 
bigger in 2000 than they were in 1900, in real dollars.
    Ms. Norton. Mr. Larson, we could say, for example, with 
respect to funds that we give, that there is some contingency 
in terms of regulations on safety.
    Mr. Larson. That is right.
    Ms. Norton. We certainly could say you are not going to get 
these funds unless a certain degree of national safety perhaps 
at a minimal level is met.
    Mr. Larson. Right. And the farther you go beyond that, the 
better cost-share you will have on Federal programs. So we can 
provide incentives and say here is the base, as you indicated, 
but we can even go beyond that if you do more than that.
    Ms. Norton. Mr. Williams?
    Mr. Williams. Madam Chairman, I agree with most of what Mr. 
Larson said. I would add to it that it is the reason for the 
commission and our support of the commission. One size will not 
fit all. And to try to ascertain what all the answers to your 
questions are at this point, I think it is premature.
    We have to identify what all the problems are. A case in 
point, the levees in New Orleans are not the same as the levees 
in California. The levees in California are not the same 
throughout the State. In your area, we have the Bay Delta area, 
in my area we have Palm Springs protected by levee. They are 
both levees, they both have the basic same function, but they 
are entirely different in the way they should be assessed and 
the way they should be maintained.
    Ms. Norton. Granted, Mr. Williams. But it is not rocket 
science. Now again, New Orleans is below sea level. How many 
cities are below sea level, particularly when the Nation is 
dependent upon them for a vital resource like oil? You could 
compare that, and I realize the difficulty, you are engineers, 
you do very fine computations all the time, but I am not sure 
why we do not have a data system that could tell us the 
difference.
    There could be other areas below sea level but they might 
not have a vital resource, they might not be the center of the 
State's revenue. I do not understand why this would be--I 
understand why it is difficult for dummies like me, but for 
fellows like you who are used to rating things by data and 
mathematically, it does seem to me that would be possible.
    Mr. Williams. I cannot disagree with anything you said, 
ma'am.
    Ms. Norton. Has anyone ever attempted to do such a 
measurement, saying, okay, here are all the criteria, now we 
are going to put in there the most significant areas of the 
United States where dam failure would occur, and then to chart 
then the criteria, I have named some of them, and say, okay, 
this is what we say, we are professionals, you know, we are not 
seeking funds from the Federal Government, this is where we 
come out. Would that be useful to our Country at this point?
    Mr. Williams. I believe it would be and I believe we are at 
the beginning of developing that. Why it does not exist now, I 
could not answer other than it is such a diverse Country. But I 
think different areas have different levels of that inventory.
    Ms. Norton. Mr. Moyle wanted to respond right then.
    Mr. Moyle. I was going to respond to your question about 
looking at hazards associated with dams. One of the tools we 
use is we have emergency action plans and those plans develop 
those inundation areas downstream. We are working with the 
Department of Homeland Security to look at which are the most 
critical dams as far as what are the greatest impacts or 
consequences downstream. So it is a tool that we are beginning 
to start----
    Ms. Norton. What do you mean, critical dams?
    Mr. Moyle. Those that have the greatest consequences to 
population below the dam, other interdependencies down below 
that dam, whether it is a water treatment plant, it is a 
school, it is a hospital, you would take into consideration all 
those other impacts downstream and those dams would be the ones 
that need to be protected from a national security standpoint.
    Ms. Norton. I am also on the Homeland Security Committee. 
We had to pound the Homeland Security Department to do 
precisely that for terrorism. So now they have all these fine 
notions, they did not come out so well when they did the 
funding last year, and New York and the District of Columbia 
went through the ceiling, but they have these fine measurement 
risk consequences about how we ought to fund the terrorism 
grants. Now you see the way we were doing this, we were doing 
that on a kind of per-capita basis.
    The fact is that every single jurisdiction is subject to 
some kind of natural disaster. We even had a flood here in the 
District of Columbia which is not exactly a floodplain. But 
when it came to a terrorist disaster, any layman could tell you 
where Al Queda is likely to be looking. So, first of all, we 
are a Federal Republic and so everybody wants a little piece of 
the pie. But then after Katrina, shame on everybody if we have 
anything approaching that again.
    Mr. Roth, finally, did you want to give an answer? I will 
go on to Mrs. Schmidt after.
    Mr. Roth. I did, thank you. You pose some very difficult 
and thought-provoking questions regarding the future of New 
Orleans and its hurricane protection system. Ms. Norton, I 
would just like to draw your attention to our report which will 
actually be released to the public on June 1st. I would like to 
personally offer you a copy. It does have many answers I 
believe that will satisfy some of your concerns regarding New 
Orleans.
    Ms. Norton. Mr. Roth, do not think I did not notice that I 
had provided you from the last question a lead-in to indicate, 
what I must tell you I am very grateful for, your upcoming 
report, I want an autographed copy, if you would, What Went 
Wrong and Why, or words to that effect. But do you have 
anything--you see what I am looking for. I am looking for 
something comparable, what will go wrong and why if we do not 
prepare for the next flood, in effect.
    Mr. Roth. That is precisely our point. We try to make the 
point extremely well in here that the reason we face the 
situation that we faced in New Orleans following Katrina is 
that as a society, State and local government, Federal 
Government, we put safety, either unintentionally or 
intentionally, on the back burner. We simply cannot do that. 
Our levee systems, first and foremost, protect people. If we do 
not pay attention to them, we do not inspect them, we do not 
maintain them, they are going to fail, and when they fail they 
are going to take precious lives with them.
    Katrina was an incredible wake-up call. That was said many 
times I think today or several times today. What was not said 
was we cannot hit the snooze button. We have got to pay 
attention to the lessons from Katrina and take action not only 
in New Orleans, but in California, in the Mississippi Valley, 
in Atlantic Coast where levees are protecting people.
    Ms. Norton. Thank you, Mr. Roth. I want to thank each of 
you on this panel. You advise is very valued for us because you 
are professionals.
    I want to move to Mrs. Schmidt.
    Mrs. Schmidt. Thank you, Madam Chairman. I have a couple of 
questions. The first one is for Mr. Williams. Sir, one of the 
critiques of my bill is level of funding is not adequate. How 
much money should be authorized to undertake my effort?
    Mr. Williams. Thank you, ma'am, or no, thank you.
    [Laughter.]
    Mr. Williams. I do not know and I do not think anybody 
knows for sure. Our concern is both timeframe and money, that 
if we rush into this levee certification and levee inventory 
program too quickly, we will come out with a result that is not 
entirely adequate and what we are all looking for. The flip 
answer is, adequate funding to make the right report. I do not 
know what that is.
    Our concern is mainly time right now, but resources 
certainly have to be there. That is why we recommend that the 
commission have the ability to look at what resources are 
available, not just in the Federal Government but in a cost-
share manner from the locals and from the State. It is going to 
take all those resources together to really make this program 
worthwhile I believe.
    Mrs. Schmidt. Thank you. I have two questions, depending 
upon the way Mr. Larson answers the first one, I may only have 
one. Mr. Larson, in your testimony you suggest States need 
financial incentives from the Federal Government to undertake 
levee safety programs. Some could say this means that States 
need financial incentives to provide for the health and welfare 
of their citizens. Why do we need to provide Federal financing 
incentives for States to do the right thing?
    Mr. Larson. Well, if we have the will at the Federal 
Government level to say you do not get any disaster relief from 
the Federal Government because flooding and public safety is 
not only the function, but the primary duty of State and local 
government, then we would not need incentives.
    But I doubt that is going to happen. Politically, that is a 
very, very difficult thing to do, and you know that better than 
I do. But we now have a system where we have reliance on 
Federal backstops for disaster relief and the rest. So I do not 
think you are going to turn that around by just simply saying 
to the State and local government you ought to do this.
    We tried that in a number of programs. In dam safety, for 
example, we tried that, but as you heard Mr. Maurstad say, the 
amount of money States are putting into their dam safety 
programs has actually decreased in the last ten years. So 
unless we turn that around I think with some sort of incentive 
or disincentive, it can work both ways, we are not going to get 
that shared responsibility that we are going to have to have 
that Mr. Williams talks about, that we do need to have that 
shared Federal/State/local approach to it. It cannot be 
Federal. We are not going to solve this problem at the Federal 
level.
    Mrs. Schmidt. Thank you. In another part to your testimony 
you suggest that the Federal Government, including the Corps of 
Engineers, should not be performing the detailed engineering 
assessments for non-federal levees. Who should be responsible 
for these assessments, and why?
    Mr. Larson. The levee owners. We believe that the levee 
owners have--you have to remember that local communities 
requested levees. This was their option on how they choose to 
address flood risk in their community. And now we are providing 
communities, and we always have, with options about how we can 
assist you to do that. Some options communities are using now 
is to relocate populations out of risk areas, to elevate 
structures and do other things, but not to put structural 
measures in.
    Structural measures have a long-term obligation not only at 
the local level where they have to operate and maintain those, 
but as we now see, even when they do not do that, who do they 
come back to? They come back to the Federal treasury to say, 
gee, we did not have enough money to operate and maintain, help 
us out.
    So, it is our opinion that if you made that choice at the 
local level to build a structural measure, such as a levee, and 
you provided assurance that you were going to operate and 
maintain that levee, then you should do that. And part of that 
operation and maintenance is getting that levee certified and 
of assessing the adequacy of the levee, and providing that 
information to those of us at the Federal level who credit 
those kinds of structures.
    Mrs. Schmidt. Thank you. Does anyone wish to add to that? 
Yes, sir?
    Mr. Moyle. Larry mentioned the National Dam Safety Program, 
which is an incentive program, and in that program you have to 
be able to have the State authority to inspect, enforce, and 
issue permits for dams, and that is the incentive. Currently, 
the levee program, I believe there are only 20 States that even 
have regulatory authority. So the incentive program may be to 
get those States to think more proactively about having a 
regulatory program oversight over levees.
    Mrs. Schmidt. Thank you. Anybody else?
    Mr. Williams. If I may add. I would agree with Mr. Larson 
in most cases, but there are cases, well, actually, a lot of 
cases where the levees were federally partnered in the 
construction. In such cases, NAFSMA would advocate that the 
Federal Government still be involved, on a cost-shared basis, 
of course, in the certification. They are the original levee 
constructors.
    Mrs. Schmidt. Thank you. I do not have any other questions.
    Ms. Norton. Thank you very much, Mrs. Schmidt.
    My own Ranking Member of the GSA Subcommittee, the FEMA 
Subcommittee is here. Mr. Graves, do you have any questions of 
this panel?
    Mr. Graves. Thank you, Madam Chairman. I apologize for 
being late. I have actually been up close and personal to the 
levee issue the last two days. I live in northwest Missouri 
where we have gotten a lot of rain. And when I left this 
morning, on our farm the water was six feet deep.
    But we had major breaks. Over Sunday, I was sandbagging to 
try to stop breaks in private levees, and we lost that fight, 
and then yesterday, Monday, we were sandbagging the Missouri 
levee down around St. Joe area. We are expecting the crest 
today sometime around, well, right about now, as a matter of 
fact. No loss of life, good news, just mostly property damage. 
But it is an issue we are dealing with both on public levees 
and private levees. And it is quite interesting that we have 
this hearing today in just being able to deal with it.
    I do not have any questions at this point, Madam Chairman. 
I appreciate your having this hearing. I am going to read 
through the testimony. I would like my original statement to be 
submitted to the record, if that is possible. I very much 
appreciate your concern and your insight into this issue.
    Ms. Norton. Glad to receive your statement, Mr. Graves, 
particularly as a case in point, perhaps of a different order 
of magnitude, but I am not sure farmers in your area would 
consider it so. It does tell us the continuing issue this 
raises, Mr. Graves. Of course, as a farmer, you can imagine 
what it must mean. I certainly hope it is not at a time when 
crops have been spoiled and that that region of the farm was 
not underwater.
    Every time I think, gentlemen, about the catastrophes we 
have seen, and you see it on television, perhaps it is because 
I studied history in college, I get new appreciation for early 
America, for 19th century America, for 20th century America for 
that matter, when I see what happened in I believe Kansas with 
a little town blown away. Just think about that. Before there 
was a FEMA, before the Federal Government took any 
responsibility for anything like this, which did not happen 
until around the time of the New Deal, and FEMA was created, 
when, in the 1970s.
    I have in mind people leaving the East Coast and just going 
to the next part of the Country and being glad that they were 
expanding the frontier, then finding hurricanes of the kind 
they never experienced in the East, floods that wiped away 
whole, huge sets of Americans who came here seeking their 
fortune, went West seeking their fortune.
    I do not know if we really appreciate without a reading of 
history, which too often centers on battles, on perhaps 
biography, and less often on what Americans suffered to build 
the great American economy and each and every great city. 
Whether you are talking about New York City or a small town in 
Kansas, if it occurred much before the 1970s, these areas were 
on their own. The loss of life was huge and largely unreported.
    What we are trying to do now is bring all of these issues 
into a 21st century context, right as everything may be 
changing from under us as notions of global warming throw 
everything up in the air. Your professional understanding and 
expertise is ever so much more valued today, and your testimony 
is particularly important to the Committee.
    Agencies come in, they are after all under the discipline 
of being a part of an Administration, whether it is Democratic 
or Republican. They are doing the best they can. You hear me 
asking about peer review, because Congress needs to step back 
and find some way to truly understand, consistent with cost, 
what we have to do, and when we have to do it, and how much 
time experts think we have to do it.
    You have in coming today and offering candid testimony and 
new ideas helped us immeasurably as we seek what for us will be 
large answers to even larger questions. Again, thanks to each 
and every one of you for your testimony.
    I thank the Members for attending.
    This joint Subcommittee hearing is now adjourned.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5920.010
    
    [GRAPHIC] [TIFF OMITTED] T5920.011
    
    [GRAPHIC] [TIFF OMITTED] T5920.012
    
    [GRAPHIC] [TIFF OMITTED] T5920.013
    
    [GRAPHIC] [TIFF OMITTED] T5920.014
    
    [GRAPHIC] [TIFF OMITTED] T5920.015
    
    [GRAPHIC] [TIFF OMITTED] T5920.016
    
    [GRAPHIC] [TIFF OMITTED] T5920.017
    
    [GRAPHIC] [TIFF OMITTED] T5920.018
    
    [GRAPHIC] [TIFF OMITTED] T5920.019
    
    [GRAPHIC] [TIFF OMITTED] T5920.020
    
    [GRAPHIC] [TIFF OMITTED] T5920.021
    
    [GRAPHIC] [TIFF OMITTED] T5920.022
    
    [GRAPHIC] [TIFF OMITTED] T5920.023
    
    [GRAPHIC] [TIFF OMITTED] T5920.024
    
    [GRAPHIC] [TIFF OMITTED] T5920.025
    
    [GRAPHIC] [TIFF OMITTED] T5920.026
    
    [GRAPHIC] [TIFF OMITTED] T5920.027
    
    [GRAPHIC] [TIFF OMITTED] T5920.028
    
    [GRAPHIC] [TIFF OMITTED] T5920.029
    
    [GRAPHIC] [TIFF OMITTED] T5920.030
    
    [GRAPHIC] [TIFF OMITTED] T5920.031
    
    [GRAPHIC] [TIFF OMITTED] T5920.032
    
    [GRAPHIC] [TIFF OMITTED] T5920.033
    
    [GRAPHIC] [TIFF OMITTED] T5920.034
    
    [GRAPHIC] [TIFF OMITTED] T5920.035
    
    [GRAPHIC] [TIFF OMITTED] T5920.036
    
    [GRAPHIC] [TIFF OMITTED] T5920.037
    
    [GRAPHIC] [TIFF OMITTED] T5920.038
    
    [GRAPHIC] [TIFF OMITTED] T5920.039
    
    [GRAPHIC] [TIFF OMITTED] T5920.040
    
    [GRAPHIC] [TIFF OMITTED] T5920.041
    
    [GRAPHIC] [TIFF OMITTED] T5920.042
    
    [GRAPHIC] [TIFF OMITTED] T5920.043
    
    [GRAPHIC] [TIFF OMITTED] T5920.044
    
    [GRAPHIC] [TIFF OMITTED] T5920.045
    
    [GRAPHIC] [TIFF OMITTED] T5920.046
    
    [GRAPHIC] [TIFF OMITTED] T5920.047
    
    [GRAPHIC] [TIFF OMITTED] T5920.048
    
    [GRAPHIC] [TIFF OMITTED] T5920.049
    
    [GRAPHIC] [TIFF OMITTED] T5920.050
    
    [GRAPHIC] [TIFF OMITTED] T5920.051
    
    [GRAPHIC] [TIFF OMITTED] T5920.052
    
    [GRAPHIC] [TIFF OMITTED] T5920.053
    
    [GRAPHIC] [TIFF OMITTED] T5920.054
    
    [GRAPHIC] [TIFF OMITTED] T5920.055
    
    [GRAPHIC] [TIFF OMITTED] T5920.056
    
    [GRAPHIC] [TIFF OMITTED] T5920.057
    
    [GRAPHIC] [TIFF OMITTED] T5920.058
    
    [GRAPHIC] [TIFF OMITTED] T5920.059
    
    [GRAPHIC] [TIFF OMITTED] T5920.060
    
    [GRAPHIC] [TIFF OMITTED] T5920.061
    
    [GRAPHIC] [TIFF OMITTED] T5920.062
    
    [GRAPHIC] [TIFF OMITTED] T5920.063
    
    [GRAPHIC] [TIFF OMITTED] T5920.064
    
    [GRAPHIC] [TIFF OMITTED] T5920.065
    
    [GRAPHIC] [TIFF OMITTED] T5920.066
    
    [GRAPHIC] [TIFF OMITTED] T5920.067
    
    [GRAPHIC] [TIFF OMITTED] T5920.068
    
    [GRAPHIC] [TIFF OMITTED] T5920.069
    
    [GRAPHIC] [TIFF OMITTED] T5920.070
    
    [GRAPHIC] [TIFF OMITTED] T5920.071
    
    [GRAPHIC] [TIFF OMITTED] T5920.072
    
    [GRAPHIC] [TIFF OMITTED] T5920.073
    
    [GRAPHIC] [TIFF OMITTED] T5920.074
    
    [GRAPHIC] [TIFF OMITTED] T5920.075
    
    [GRAPHIC] [TIFF OMITTED] T5920.076
    
    [GRAPHIC] [TIFF OMITTED] T5920.077
    
    [GRAPHIC] [TIFF OMITTED] T5920.078
    
    [GRAPHIC] [TIFF OMITTED] T5920.079
    
    [GRAPHIC] [TIFF OMITTED] T5920.080
    
    [GRAPHIC] [TIFF OMITTED] T5920.081
    
    [GRAPHIC] [TIFF OMITTED] T5920.082
    
    [GRAPHIC] [TIFF OMITTED] T5920.083
    
    [GRAPHIC] [TIFF OMITTED] T5920.084
    
    [GRAPHIC] [TIFF OMITTED] T5920.085
    
    [GRAPHIC] [TIFF OMITTED] T5920.086
    
                                    

</pre></body></html>
